<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: BUSINESS COMMUNITY PERSPECTIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   COMPREHENSIVE IMMIGRATION REFORM: 
                    BUSINESS COMMUNITY PERSPECTIVES 
=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 6, 2007

                               __________

                           Serial No. 110-41

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

35-858 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      

     











          








                          COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel





















                            C O N T E N T S

                              ----------                              

                              JUNE 6, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3

                               WITNESSES

Mr. Laszlo Bock, Vice President, People Operations, Google, Inc.
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. Jerry Mixon, Jr., Partner, Mixon Family Farms
  Oral Testimony.................................................    15
  Prepared Statement.............................................    16
Mr. John F. Gay, Senior Vice President for Government Affairs and 
  Public Policy, National Restaurant Association
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Mr. William R. Hawkins, Senior Fellow, U.S. Business and Industry 
  Council
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     5

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Laszlo Bock, Vice President, People Operations, 
  Google, Inc. to the Honorable Zoe Lofgren, a Representative in 
  Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    52
Letter from William B. Spencer, Vice President, Government 
  Affairs, Associated Builders and Contractors (ABC), Inc. to the 
  Honorable Zoe Lofgren, Chairwoman, and the Honorable Steve 
  King, Ranking Member, Subcommittee on Immigration, Citizenship, 
  Refugees, Border Security, and International Law...............    54


   COMPREHENSIVE IMMIGRATION REFORM: BUSINESS COMMUNITY PERSPECTIVES

                              ----------                              


                        WEDNESDAY, JUNE 6, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Berman, Jackson Lee, 
Waters, Davis, Ellison, King, Gallegly, and Gohmert.
    Staff present: Ur Mendoza Jaddou, Chief Counsel; R. Blake 
Chisam, Majority Counsel; George Fishman, Minority Counsel; and 
Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and members of the public who are here 
today for the Subcommittee's 14th hearing on comprehensive 
immigration reform.
    Our series of hearings on comprehensive immigration reform 
began at Ellis Island, where we examined the need for 
comprehensive immigration reform to secure our borders, to 
address economic and demographic concerns, and there we 
reviewed our Nation's rich immigrant history.
    We have studied immigration reform from 1986 and 1996 in an 
effort to avoid the mistakes of the past. We have considered 
the problems with and proposed solutions for our current 
employment and work site verification system. And in light of 
the recent Senate immigration agreement to eliminate family 
priorities in immigration and replace those priorities with a 
completely new and untested point system, we studied the 
contributions of family immigrants to America and the various 
immigration point systems used around the world. We have 
explored the cost of immigration on our States and localities, 
the importance of immigrant integration, and the future of 
undocumented immigrant students in the United States.
    A few weeks ago, we heard from the faith-based and 
immigrant communities, and labor unions who represent both U.S. 
workers and immigrants around the country.
    Today we turn our attention to perspectives from the 
business community.
    Looking back to our first hearing on comprehensive 
immigration reform at Ellis Island, economist Dan Siciliano 
noted, ``The evidence continues to mount in favor of the 
conclusion that immigration is good for the economy, good for 
jobs, and a critical part of our Nation's future prosperity.''
    This statement is not only true in one or two sectors of 
the American economy, it is true in several sectors, including 
high-tech, agriculture, and service industries.
    The world, as Thomas Friedman puts it, is now flat. To 
compete in such an economy, American high-tech businesses need 
access to the global talent pool. Without consistent, simple 
access to the best and brightest minds in the world, America 
will likely face stiffer competition from abroad in what may be 
the key economic sector of the 21st century.
    Like the high-tech industry, the service industry 
recognizes the urgent need for comprehensive immigration 
reform. From restaurant workers and landscapers to housekeepers 
and, most importantly, people who care for our most vulnerable, 
including children and elderly parents, our current immigration 
system is failing to fill the needs of our aging U.S. 
workforce.
    Nowhere is the lack of U.S. workers more obvious than in 
the agriculture sector. In California alone, last season's pear 
crop was lost due to a lack of workers to pick the fruit. 
Farmers around the country will testify that no matter how much 
they can realistically pay workers, they can't seem to find 
U.S. workers to tend the field.
    It is time for Congress to recognize an urgent need. It is 
time for comprehensive immigration reform.
    I want to thank you again, to our distinguished witnesses, 
for being here today to help us sort through what is a complex 
and very important issue.
    And I would now recognize our Ranking minority Member, 
Congressman Steve King, for his opening statement.
    [The opening statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's fourteenth 
hearing on comprehensive immigration reform.
    Our series of hearings on comprehensive immigration reform began at 
Ellis Island, where we examined the need for comprehensive immigration 
reform to secure our borders, to address economic and demographic 
concerns, and there we reviewed our nation's rich immigrant history. We 
have studied immigration reform from 1986 and 1996 in an effort to 
avoid the mistakes of the past. We've considered the problems with and 
proposed solutions for our current employment and worksite verification 
system. In light of the recent Senate immigration agreement to 
eliminate family priorities in immigration and replace those priorities 
with a completely new and untested point system, we studied the 
contributions of family immigrants to America and various immigration 
point systems used around the world. We have explored the costs of 
immigration on our states and localities, the importance of immigrant 
integration, and the future of undocumented immigrant students in the 
United States. A few weeks ago, we heard from the faith based and 
immigrant communities and labor unions who represent both U.S. workers 
and immigrants around the country.
    Today we turn our attention to perspectives from the business 
community. Looking back to our first hearing on comprehensive 
immigration reform at Ellis Island, economist Dan Siciliano noted: 
``The evidence continues to mount in favor of the conclusion that 
immigration is good for economy, good for jobs, and a critical part of 
our nation's future prosperity.''
    This statement is not only true in one or two sectors of the 
American economy, it is true in several sectors, including the high-
tech, agriculture, and service industries.
    The world, as Thomas Friedman puts it, is now flat. To compete in 
such an economy, American high-tech businesses need access to the 
global talent pool. Without consistent, simple access to the best and 
brightest minds in the world, America will likely face stiffer 
competition from abroad in what may be the key economic sector of the 
21st century.
    Like the high-tech industry, the service industry recognizes the 
urgent need for comprehensive immigration reform. From restaurant 
workers and landscapers to housekeepers and, most importantly, people 
who care for our most vulnerable, including children and elderly 
parents, our current immigration system is failing to fill the needs of 
our aging U.S. workforce.
    Nowhere is the lack of U.S. workers more obvious than in the 
agriculture sector. In California alone, last season's pear crop was 
lost due to a lack of workers to pick the fruit. Farmers around the 
country will testify that no matter how much they can realistically pay 
workers, they can't seem to find U.S. workers to tend the fields.
    It is time for Congress to recognize an urgent need. It's time for 
comprehensive immigration reform.

    Mr. King. Thank you, Madam Chair. Thanks for holding this 
hearing. And thanks for all of the hearings that we have had.
    We have had a lot of witnesses before us, and I appreciate 
you all being here as a service to America. We thank you for 
that.
    But I don't think the public realizes how much sacrifice 
there is on your part, of your time and treasure, to come here 
and contribute to the public record and dialogue that hopefully 
will move us toward a rational immigration policy.
    But as the Senate engages in debate on the fragile deal 
before it, the media is full of comments from lawmakers and 
stakeholders expressing their sentiment that the deal is not 
perfect, but it is the best we can do.
    But it is far from perfect, and it is not the best we can 
do, and we should never commit the destiny of America to that 
kind of sentiment.
    So as we seek to cure our Nation's immigration ills, we 
should be mindful of the Hippocratic principle that the 
treatment for any illness is first do no harm.
    We tried a broad amnesty as the treatment for illegal 
immigration in 1986. That was a comprehensive immigration 
reform plan.
    And I would be interested in anybody who could define the 
distinctions between the two except in the order of magnitude, 
and this one is a 12 to 20 multiplier of that 1986 
comprehensive immigration reform plan.
    It not only failed to cure the problem, it made it worse. A 
million illegal immigrants quickly became 3 million. And now we 
have 12 million to 20 million or more, yet the Senate bill 
proposes administering the same cure that made the illness 
worse before.
    Proponents of the Senate deal claim that it is not an 
amnesty because illegal aliens will be required to undergo a 
background check, pay back taxes and pay a fine before they 
will be given permanent status.
    They gloss over the fact that none of these things needs to 
be accomplished before an illegal alien is given the very 
objective of his crime, which is immediate authorization to 
work in the United States or stay in the United States, along 
with the protection from removal for as long as they would like 
to renew their status.
    Even the background check is not a precondition to a grant 
of probationary status. If the background check cannot be 
completed by the close of business on the day following the 
filing of an application for probationary status, the illegal 
alien immediately gets legal status, work authorization and 
protection from removal anyway.
    Many advocates of the deal rationalize that at least this 
will bring illegal aliens out of the shadows, enhancing our 
security.
    But granting amnesty to 12 million to 20 million people who 
have already demonstrated by their very presence a willingness 
to break our laws does absolutely nothing to make our country 
safer and gives me no confidence that those who are willing to 
break our laws will come out of the shadows.
    This drastic step is being proposed under the pretext that 
our economy will collapse without legalizing millions of cheap, 
unskilled workers.
    First, there is no widespread labor shortage that would 
justify this approach. There are 69 million Americans of 
working age who are simply not in the workforce.
    And I had no witness come forward and tell me why we are 
not trying to recruit one out of 10 of those to replace the 6.9 
million working illegals in America.
    Many of these Americans dropped out of the workforce 
because they were discouraged by the depressed wages being 
offered as a result of the widespread availability of cheap 
labor.
    Supply and demand does work with labor as well as any other 
commodity, and an oversupply drives down the value of that 
labor.
    The second, as Mr. Hawkins of the U.S. Business and 
Industry Council points out, creating a large underclass of 
uneducated, impoverished toilers is a business model that looks 
backward, not forward.
    It does not expand the middle-class market that most 
businesses need to reach to sell their goods and services. 
Businessmen stand to lose more in the long run from the 
increased tax and regulatory burdens that an alienated 
proletarian voting bloc will support than from the deceptive 
short-term gains from low labor costs.
    America's historical response to a tight labor market has 
been advancements in technology and improvements in 
productivity, resulting in so many Americans achieving the 
American dream.
    Finally, the claim that illegal immigrants are doing work 
that Americans won't do is false and an insult to the American 
workforce. Americans have historically done every kind of work, 
and they continue to do so now in virtually every field.
    Many more Americans would be willing to do the jobs that 
proponents of amnesty consider undesirable if they were paid a 
decent wage.
    And then as I listened to the testimony of Dr. Siciliano, 
the economist from Stanford University, his testimony said that 
illegal--or immigration would--he didn't draw a distinction 
between legal and illegal--would increase and improve the 
economy because those who didn't agree didn't take into account 
the ripple effect of the jobs that are created by the 
consumption of those immigrant workers, legal or illegal.
    But he also said that he didn't know where the dividing 
line was, where the point of diminishing returns was. He had 
not done the calculation. He simply concluded that it always 
paid, and so ``I don't know'' was his answer to that question, 
``Where are the diminishing returns?''
    I have not heard empirical data that supports these 
conclusions. I have heard anecdotes. And I happen to also 
hear--I am going to hear more and more anecdotes here.
    But I am going to ask you witnesses, present us, please, 
with some empirical data that is a broad objective across this 
overall society, economy and culture. If we legislate on 
anecdotes, we could drive America down into the depths of the 
third world if we don't make a bright decision here.
    Let's let it be an informed decision, not an anecdotal 
decision that fits someone's political agenda. And I look 
forward to the testimony.
    And I would yield back the balance of my time.

    Ms. Lofgren. The gentleman's time has expired.
    We will reserve time for the Chairman of the Committee, Mr. 
Conyers, and the Ranking Member, Mr. Smith, should he come, for 
their opening statements.
    And other Members of the Committee are invited to submit 
their statements for the record.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Last Wednesday's hearing 
dealt with probably the most crucial aspect underlying the immigration 
debate, an immigrant's ability to integrate, and assimilate into 
American society. Last Thursday we tackled another pressing topic, the 
practical issue of the impact of immigration on States and Localities. 
On Friday May 18, 2007 we discussed the issue of the ``Future of 
Undocumented Immigrant Students,'' and on May 24, 2007 we examined the 
``Labor Movement Perspective'' on comprehensive immigration reform. 
Today we will examine the perspectives of the business community.
    I want to begin by thanking the Chairwoman, Congresswoman Zoe 
Lofgren for her leadership on this crucial issue, and her wisdom in 
calling these hearings. These hearings have afforded us the opportunity 
to hear from the players who are most impacted by comprehensive 
immigration reform. Regardless of where you stand on this issue, the 
one thing that Members on both sides of the aisle can agree on is the 
need to fix a system that is broken. This will include tougher 
enforcement of immigration laws, but only after a meaningful effort has 
been made to provide our border patrolman with the resources they need 
to do their job effectively. Although I may not be a proponent of 
building a fence, I do realize the need to secure our borders so I 
would advocate for more border patrolmen; better radio's so these 
patrolmen and patrolwomen can communicate effectively; vehicles that 
can navigate the water and the tough terrains of the southern border; 
aircraft that will give our border patrolmen an enhanced presence and 
improved visibility; and a virtual fence that utilizes the latest 
technology. My legislation the ``Save America Comprehensive Immigration 
Reform Act'' of 2007 provides for all of these necessities.
    In addition to securing our borders we must simultaneously protect 
our economy and protect all workers from exploitation. The title of 
this hearing is ``Business Community Perspectives,'' and I am almost 
confident that the witnesses will repeat much of what we have already 
learned over the past couple of months and that is the fact that 
comprehensive immigration reform is essential to the survival of our 
nation's economy. We live in a highly educated society where our high 
school graduates expect to earn a college degree and a significant 
number of those individuals move on to earn advanced degrees so they 
can work in high-skill positions. However, there are jobs that need to 
be filled in the low-skilled sector because our economy continues to 
grow, the American worker is spending longer hours at the office, and 
the demand for essential products like groceries is not going to cease 
to exist. Therefore the undocumented population continues to provide an 
essential service that our economy needs. I will reiterate the fact 
that immigration actually benefits our national economy and we have 
heard this fact from numerous witnesses who have testified before this 
subcommittee in the past. Immigration will benefit social security, and 
immigration helps create small businesses that generate tax revenue for 
local municipalities across the nation.
    I note that one of today's witnesses is John Gay who represents the 
National Restaurant Association. I am confident that his remarks will 
echo the sentiments of those who represent the construction and 
agricultural industry. Quite frankly there is a labor shortage in these 
various industries, and these industries continue to grow at a rapid 
pace. In light of these facts I am puzzled by Senator Bingaman's 
amendment to the Senate immigration bill which passed and cut the guest 
worker program in half to 200,000. This is not feasible in light of all 
the studies that suggest we have an increasing labor shortage; 
certainly the anecdotal evidence is there when you pass a construction 
project that has not been completed, or you pass a field that is being 
tended to by just a handful of laborers.
    We will also hear testimony from Laszlo Bock of the Google 
Corporation. He can also testify to the virtues and numerous 
contributions that foreign born entrepreneurs have made to U.S. 
technology companies like Google, Intel, and Yahoo. In fact it was a 
Russian born immigrant named Sergey Brin who helped start Google. 
Another foreign born entrepreneur Jerry Yang co-founded Yahoo.
    In a recent study by the National Venture Capital Association they 
discovered that over the past 15 years, immigrants founded one of every 
four venture-backed startups that became publicly traded companies. The 
study also showed that immigrant-founded public companies today employ 
about 220,000 people in the United States alone, and represent a total 
market value of more than $500 billion. Therefore, the value of H-1B 
visas can not be overstated. The contribution that these individuals 
make to our country economically is quantifiable, and culturally 
undeniable.
    However, Mr. Bock and others from the tech industry are also 
suffering from a shortage in the labor supply. Since the 9/11 attacks 
the number of H-1B visas granted to U.S. employers has dropped to 
65,000 a year, from 195,000 year annually in 2000 and 2001. Senator 
Gregg has offered an amendment to the Senate Immigration bill that 
would increase the number of H-1B visas to 150,000 for fiscal year 
2008, and 215,000 a year thereafter. This amendment offered by Senator 
Gragg is the type of thoughtful approach that we need to make as we 
craft a new immigration bill, a bill that will hopefully be practical 
but meets our national security and economic needs.
    In conclusion I will say that the current immigration system has 
failed the business community. Employers can not verify the status of 
potential employees, resulting in scenarios that we saw played out in 
New Bedford Massachusetts, or at the Swift Meat Packing Company in 
Colorado. Likewise, leaders of the agricultural, service, and 
construction industries continue to make pleas for an effective guest 
worker program, or a path to legalization for the millions of 
undocumented folks that are here. A solution must be found.
    I look forward to the testimony of our witnesses, Madam chair I 
yield back my time.

    Ms. Lofgren. I am pleased to introduce the witnesses.
    I would like to start with an introduction to Jerry Mixon, 
Jr., a partner alongside his brothers at Mixon Family Farms, 
Inc. Producing blueberries; raspberries and blackberries. Mixon 
Family Farms employs between 500 and 600 people during harvest 
season. He served for 4 years as president of the Florida 
Blueberry Growers Association and currently sits on two 
standing committees of the Florida Fruit and Vegetable 
Association, as well as the board of directors for the Polk 
County Farm Bureau in Florida. He earned his bachelor's degree 
at the University of Central Florida and has completed his 
master's degree course work at the University of Florida.
    I am pleased to introduce also John Gay, who is the senior 
vice president for government affairs and public policy at the 
National Restaurant Association. Mr. Gay co-founded and 
continues to co-chair the Essential Worker Immigration 
Coalition and chairs the board of the National Immigration 
Forum. Prior to his post at the National Restaurant 
Association, he worked for the American Hotel and Lodging 
Association and the International Franchise Association. He 
also worked on the legislative staff of the former Republican 
Senator from Georgia, Mack Mattingly.
    I would like to welcome our minority party witness, William 
Hawkins, the senior fellow for National Security Studies at the 
U.S. Business and Industry Council. Before joining the staff of 
the Business and Industry Council, Mr. Hawkins served as a 
Senior Research Analyst to Congressman Duncan Hunter of 
California, the former Chairman of the Armed Services 
Committee. Holding degrees in both economics and history, he is 
the author of two books, Importing Revolution and The Open 
Borders Lobby.
    And finally, I would like to welcome Laszlo Bock, the vice 
president of People Operations at Google. Mr. Bock came to 
Google after a distinguished tenure at the General Electric 
Company and McKinsey & Company. Mr. Bock and his family left 
Romania in July 1974, staying first at a refugee camp in 
Austria, where his mother Susan remembers receiving care 
packages signed, ``These are gifts from the people of the 
United States of America.'' They arrived in the U.S. in 
November 1974 as political asylees, settling outside of Los 
Angeles, in Claremont, California, where Mr. Bock's mother, 
father and brother each started their own businesses. His 
father established an engineering firm that grew to employ 15 
engineers. His mother founded a business consulting firm. And 
his brother created an Internet service firm. Mr. Bock received 
his bachelor's degree from Pomona College and his MBA from Yale 
University. And I am proud to have someone from Google, which 
is from my neck of the woods in California, here to testify.
    And I did want to note that Mr. Bock's mother is here with 
us today. And would you stand, Mrs. Bock, so we could recognize 
you?
    [Applause.]
    It is always wonderful when the mom can be here to see the 
testimony.
    I would first like to start with Mr. Bock.
    And I will note to all of the witnesses that your full 
statements will be in the record. We have these little machines 
on the table. You have 5 minutes to summarize your statement. 
And when you have got about a minute left, the yellow light 
goes on. It always goes faster than you think.
    And then when the red light goes on, it means that your 
time is up, and we don't have a heavy hand on the gavel, but we 
would ask that you summarize when the red light goes on so that 
we can hear all of the witnesses and get to our questions.
    So, Mr. Bock, would you begin?

           TESTIMONY OF LASZLO BOCK, VICE PRESIDENT, 
                PEOPLE OPERATIONS, GOOGLE, INC.

    Mr. Bock. Madam Chair, Ranking Member King, Members of the 
Committee, it is a great pleasure to be with you this morning 
to talk about the impact of immigration policies on Google and 
the technology industry as a whole.
    My name is Laszlo Bock, and I am the Vice President of 
People Operations at Google. I am responsible for Google's 
global efforts to attract, develop, and retain the most 
talented employees wherever we may find them.
    I am pleased to appear before you to help the Committee 
better understand the practical impact that our immigration 
system has on Google.
    Google's positive experience with American immigration 
policy dates back to our very inception. Our search engine 
began as a shared idea in the minds of our company's founders, 
Sergey Brin and Larry Page.
    Sergey's own parents, and he himself, fled the Soviet Union 
in 1979 when he was 6. A first-generation American, he is now 
one of the most successful entrepreneurs in the world.
    In fact, Google is just the most recent success story for 
immigrants in Silicon Valley. Intel, eBay, Yahoo!, Sun and many 
other companies were all founded by immigrants who were 
welcomed by America.
    And within Google, there are countless examples of 
immigrants and non-immigrant foreign workers playing a vital 
role in our company. H-1B visa holders have helped lead the 
development of Google News and Orkut, our social networking 
site.
    Immigrants from countries like Canada, Iran, and 
Switzerland now lead our business operations, our global 
marketing, our global business development, and our data 
infrastructure operations.
    Without these talented employees and others, Google, and 
the high-tech industry as a whole, would not be the success it 
is today.
    I would like to note that I, too, am an immigrant to 
America. My parents came here when they fled Communist Romania 
when I was a child. My mother is here with me today. I cannot 
begin to tell you what a proud moment this is for her and a 
humbling one for me.
    In my testimony this morning, I would like to make three 
points: First, Google's success absolutely depends on 
attracting the best and brightest employees. Second, hiring and 
retaining the most talented employees regardless of national 
origin is essential to the United States' ability to compete 
globally. And third, companies like Google would benefit from 
improving our policies toward non-U.S. workers, including in 
the area of H-1B visas, so we can continue innovating and 
growing.
    First I will talk about the role that our employees play at 
Google. People are our most vital competitive asset and the 
single most important ingredient to ensuring our future growth 
and success.
    Our strategy is simple. We hire great people and we 
encourage them to make their dreams a reality. In the 
knowledge-based economy, companies large and small depend 
primarily on their employees for success.
    America's edge depends on the ability of U.S. companies to 
innovate and create the next generation of must-have products 
and services. And that ability to innovate and create in turn 
depends on having the best and brightest workers.
    Today approximately 8 percent of Google's employees in the 
U.S. are here on 6-year H-1B visas. These Googlers currently 
span 80 different countries of origin.
    So while nine out of 10 of our employees are citizens or 
permanent residents, our need to find the specialized skills 
required to run our business successfully requires that we look 
at candidates from around the globe.
    It is no stretch to say that without these employees we 
might not be able to develop future revolutionary products, 
like the next Gmail or the next Google Earth.
    And let me share two examples. Orkut Buyukkokten was born 
in Turkey. He joined Google through the H-1B visa program and 
was responsible for developing our social networking service, 
which is called--you guessed it--Orkut.
    Krishna Bharat, a native of India who joined Google in 1999 
through the H-1B program, was one of the chief creators of 
Google News and is now our principal scientist.
    Without Orkut and Krishna and many other employees, Google 
would not be able to offer innovative and useful new products 
to our users.
    Now let me turn to the issue of how our immigration system 
affects our ability to compete with the rest of the world.
    We believe that it is in the best interest of the United 
States to welcome into our workforce talented individuals who 
happen to have been born elsewhere, rather than send them back 
to their countries of origin.
    But this doesn't mean we don't recruit here in the U.S. or 
that American workers are being left behind. On the contrary, 
we are creating jobs here in the U.S. every day.
    But we are not the only ones recruiting talented engineers, 
scientists, and mathematicians. We are in a fierce, worldwide 
competition for top talent unlike ever before.
    As companies in India, China, and other countries step up 
efforts to attract highly skilled employees, the U.S. must 
continue to focus on attracting and retaining these great 
minds.
    So what does my day-to-day experience as Google's People 
Operations leader teach me about what our country should do to 
retain the best and brightest?
    First and most importantly, each and every day we find 
ourselves unable to pursue highly qualified candidates because 
there are not enough H-1B visas.
    We would encourage Congress to significantly increase the 
annual cap of 65,000 H-1B visas to a figure more reflective of 
the growth rate of our technology-driven economy.
    Over the past year alone, the artificially low cap on H-1B 
visas has prevented more than 70 Google candidates from 
receiving H-1B visas.
    Beyond increasing the H-1B visa cap, we also believe that 
Congress should address the significant backlog in employment-
based green cards for highly skilled workers.
    In conclusion, as Congress considers the various 
immigration proposals before you, we hope you will consider 
Google's experience as well as the important role that our 
immigration policies play in ensuring that the U.S. remains the 
world's high-tech leader.
    Thank you.
    [The prepared statement of Mr. Bock follows:]

                   Prepared Statement of Laszlo Bock

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much, Mr. Bock. And you yield 
back your time.
    Mr. Mixon, we are pleased to hear from you now.

            TESTIMONY OF JERRY MIXON, JR., PARTNER, 
                       MIXON FAMILY FARMS

    Mr. Mixon. The May 28, 2007, issue of Newsweek magazine 
recalled one of President Ronald Reagan's radio addresses. In 
1977, he observed that apples were rotting on trees in New 
England because no Americans were willing to pick them. He was 
quoted as saying, ``Are great numbers of our unemployed really 
victims of our illegal alien invasion, or are those illegal 
tourists actually doing work our own people won't do?''
    Good morning, Chair Lofgren and Members of the 
Subcommittee. My name is Jerry Mixon, and I am here appearing 
before you on behalf of my corporation, Mixon Family Farms, 
Sunny Ridge Farm, the Florida Fruit and Vegetable Association, 
and the Florida and Georgia Blueberry Growers Association.
    Sunny Ridge Farm is a second-generation agricultural 
producer and marketer of fresh blueberries, blackberries, 
raspberries, and citrus.
    To date, we have farms, packing facilities, and offices in 
Florida, Georgia, Mexico, and Chile, employing up to 1,500 
employees during our peak harvest season, with an annual 
payroll of over $7 million.
    From our beginnings 15 years ago, we have committed 
ourselves to the values of honesty and hard work, with the goal 
of providing our customers with the highest quality berries 
possible.
    A key challenge to achieving our goal of high quality from 
our fields to the consumer's table lies in the highly 
perishable nature of our products. Our berries must be 
harvested on a 4-day to 5-day picking rotation and then 
promptly delivered to the market so that the consumer can enjoy 
a great quality product.
    The products we grow are primarily hand harvested due to 
their delicate nature. The importance of labor availability 
cannot be understated.
    The volume of goods and services we purchase has a 
significant impact on other businesses and industries in our 
local and surrounding communities.
    In 2006, Sunny Ridge Farm purchased in excess of $41 
million of goods and services related to maintaining our 
business.
    In 2004 and 2005, Florida had a value of production for the 
seven major vegetable crops--potatoes, berries and 
watermelons--of more than $1.8 billion on harvested acres of 
over 219,000.
    The economic impact generated by these agricultural 
entities reaches beyond our local communities to our States and 
even into our Nation.
    If growers are unable to find the labor to harvest these 
crops, and their farms go out of business, the upstream and 
downstream businesses will be adversely affected.
    Growers would be forced to develop more farms offshore. 
Subsequently, goods and services needed by these farms would be 
purchased offshore.
    Congress must pass comprehensive immigration reform this 
year which contains provisions that address the unique needs of 
agriculture for a reliable and legal workforce.
    The unique agricultural provisions must contain these basic 
components: a program to allow the current experienced 
agricultural workforce to earn a legal working status--this 
could be earned by working in agricultural employment for 
several years into the future--in addition to the payment of 
fines and a demonstration of law-abiding conduct while in the 
U.S.
    Secondly, the reform needs to include changes to the 
current employment verification system. Employers need to be 
given clear standards on how to comply with their hiring 
obligations without discrimination and with confidence that the 
workers they hire have proper work documents.
    Thirdly, the H-2A agricultural guest worker program must be 
streamlined to avoid bureaucratic delays that could potentially 
cause a grower to lose his crop because of a workforce showing 
up too late.
    The reformed H-2A program should also require a wage rate 
for foreign and U.S. workers that is fair and accurately 
reflects the market. The current H-2A adverse effect wage rate 
does not do so. And in many cases, growers cannot afford to pay 
the required wage and make a profit.
    Included in this reform should be the option of providing a 
housing allowance in lieu of actual housing. This would allow 
agricultural producers located in rural or remote areas more 
access to use the H-2A program.
    Currently the bill being debated in the Senate effectively 
addresses these key concerns. The resolution of these issues 
will be the success of not only my family's business but the 
businesses of many others who have chosen agriculture as a way 
of life.
    It is our sincere hope that the Congress will expediently 
pass a comprehensive bill which will meet the needs of 
agricultural businesses throughout America and allow us to 
continue being a world leader in safe, great-tasting 
agricultural products.
    The President Ronald Reagan quote that I began with ended 
with him saying, ``One thing is certain in this hungry world. 
No regulation or law should be allowed if it results in the 
crops rotting in the fields for lack of harvesters.''
    Thank you for the opportunity to present my views and those 
of the FFVA on this critical issue.
    [The prepared statement of Mr. Mixon follows:]
                 Prepared Statement of Jerry Mixon, Jr.
    The May 28, 2007 issue of Newsweek magazine recalled one of 
President Ronald Reagan's radio addresses. In 1977, he observed that 
apples were rotting on trees in New England because no Americans were 
willing to pick them. He is quoted as saying: ``It makes one wonder 
about the illegal-alien fuss. Are great numbers of our unemployed 
really victims of the illegal-alien invasion or are those illegal 
tourists actually doing work our own people won't do?'' Reagan 
continued. ``One thing is certain in this hungry world: no regulation 
or law should be allowed if it results in crops rotting in the fields 
for lack of harvesters.''
    Good morning Chair Lofgren and members of the Subcommittee. My name 
is Jerry Mixon and I am appearing before you on behalf of my 
corporation, SunnyRidge Farm, the Florida Fresh Fruit and Vegetable 
Association, and the Florida and Georgia Blueberry Growers 
Associations.
    SunnyRidge Farm is a second generation agricultural grower and 
marketer of fresh blueberries, raspberries, blackberries, and citrus. 
My brothers and I began fifteen years ago, under the direction of our 
father, Gerald Mixon, Sr., with 200 acres of citrus, and have grown to 
encompass 1000 acres of blueberries, raspberries, and blackberries with 
100 acres remaining in citrus production. We have established a 
marketing division at SunnyRidge Farm which has grown from servicing a 
niche market of Florida blueberries for 6 weeks of the year, to 
currently servicing a customer base spanning from Japan to England, 
from Canada to South America, 365 days a year, 7 days a week. To date, 
we have farms, packing facilities, and offices in Florida, Georgia, 
Mexico, and Chile. From our beginnings fifteen years ago, we have 
committed ourselves to the values of honesty, hard work, and the goal 
of providing our customers with the highest quality berries. We 
constantly strive to find the most effective and efficient ways to 
bring fresh, healthy, delicious product to our world market every day 
of the year.
    A key challenge to achieving our goals of high quality from our 
fields to the consumer's table lies in the highly perishable nature of 
our products. Our berries must be harvested on a 4-5 day rotation 
schedule and then promptly delivered to the market so that the consumer 
can enjoy quality product. The products we grow are primarily hand-
harvested due to their delicate nature. The importance of labor 
availability cannot be understated. We, at SunnyRidge Farm, currently 
employ a full time staff of 64 people. At the peak of our harvest 
season, we employ over 1500 in our field operations and packing 
facilities. Wages paid for the 2006 calendar year were $7.5 million. 
Because of the aforementioned perishable nature of agricultural 
products, any delay in the essential workforce would be detrimental and 
even destructive to production, as well as the livelihood of the 
grower.
    The volume of goods and services we purchase has a significant 
impact on other businesses and industries in the local and surrounding 
communities. In 2006, SunnyRidge Farm purchased:

        <bullet> $4 million
                           packing and shipping materials produced in 
        local factories

        <bullet> $3.2 million
                           transportation

        <bullet> $800,000
                           fertilizers and other supplies for farms

        <bullet> $33 million
                           domestically grown product purchased from 
        other local farmers

        <bullet> $300,000
                           travel

    These items total $41 million in economic impact to our state and 
nation.
    If agricultural growers are unable to find labor to harvest our 
crops and our farms subsequently go out of business, these upstream and 
downstream businesses will also be adversely affected. We will no 
longer require the use of these goods and services. As a result, these 
businesses will be forced to downsize their labor force. The $7.5 
million in wages paid by SunnyRidge Farm would not be recirculated in 
the communities, causing a multiplier effect of losses to all consumer 
goods, retailers, services and housing. If we lose the ability to have 
an adequate labor supply, we will be forced to develop more farms 
offshore for production on foreign soil. With the offshore farms, all 
the goods and services would also be produced by foreign entities.
    Today, I also am testifying on behalf of the FFVA, which represents 
numerous labor-intensive farmers in Florida whose businesses and 
continued success depends on a reliable labor force. In 2005, Florida 
had 42,500 commercial farms using a total of 10,000,000 acres. There 
were 6300 farms with sales exceeding $100,000. The average farm size 
was just less than 235 acres. The number of farms in Florida has 
remained fairly stable over the past ten years.
    In 2004-2005, the value of production for the seven major vegetable 
crops, potatoes, berries and watermelons totaled $1,893,183,000 with a 
harvested acreage of 219,900.
    In 2005, Florida ranked first in the U.S. for sales of snap beans, 
fresh market tomatoes, cucumbers for fresh market, cucumbers for 
pickles, bell peppers, squash and watermelons. Florida also ranked 
first in the U.S. in the value of production of oranges, grapefruit, 
tangerines, and sugarcane for sugar and seed. Without a reliable labor 
force, Florida agriculture is at risk and the multiplier effect of job 
and production loss that the figures mentioned above show that our 
company would experience would be replicated throughout the state's 
economy.
    We, who have the great privilege and responsibility of providing 
safe, healthy and delicious produce, come to you today in support of 
comprehensive immigration reform. Congress must pass comprehensive 
immigration reform this year which contains provisions that address the 
unique needs of agriculture for a reliable and legal workforce. The 
unique agricultural provisions must contain three basic components:

        <bullet>  A program to allow the current experienced 
        agricultural workforce to earn legal working status as part of 
        comprehensive reform

        <bullet>  A reform of the H-2A agricultural guest worker reform

        <bullet>  Reform of the current employment verification system 
        so that employers are given clear standards on how to comply 
        with their hiring obligations without discrimination, and can 
        be confident that the workers they are hiring have proper work 
        authorization documents.

    A program for general business will not meet the unique needs of 
agricultural business.
    Those experienced agricultural laborers in undocumented status, who 
can prove substantial agricultural experience, should be allowed to 
earn legal working status. Legal status could be earned by working in 
agricultural employment for several years in the future, in addition to 
the payment of fines, and the demonstration of law-abiding conduct 
while in the U.S. This will provide an important bridge to the expanded 
use of the reformed H-2A program.
    To make the H-2A guest worker program workable, it first must be 
streamlined to avoid bureaucratic delays that result in applications 
being approved by the Department of Labor in an untimely manner. This 
results in a grower potentially losing his crop due to a workforce 
arriving too late. Secondly, the program should require a wage rate for 
foreign and U.S workers that is fair and accurately reflects the 
market. The current H-2A Adverse Effect Wage Rate does not do so, and 
in many cases growers can not afford to pay the required wage and make 
a profit. Thirdly, the program is currently a litigation nightmare 
because of its complexity. It must be simplified. Mandatory mediation 
also must be part of the federal right of action, in order to avoid 
needless litigation costs and disruptions. Further, because 
agricultural products are grown primarily in rural areas, housing is 
not always available. The inclusion of a reform providing the option of 
a housing allowance, in lieu of housing, would benefit the agricultural 
businesses located in rural or remote areas by facilitating their use 
of the program.
    Currently, the bill being debated in the Senate addresses these key 
concerns. The resolution of these issues is essential to the success of 
not only my family's business, but the businesses of many others who 
have chosen agriculture as their livelihood.
    Research demonstrates that unskilled immigrants compliment rather 
than replace native-born Americans in the labor force, doing jobs that 
native-born Americans will not do.
    The facts speak for themselves. The six states that receive the 
largest in-flow of illegal immigrants--New York, California, Illinois, 
Texas, Florida, and Arizona--have unusually low unemployment rates. In 
fact, with the exception of California and Illinois, they are already 
lower than the already low national average of 4.5 percent recorded in 
April of 2007.
    FFVA and other state, regional, and national agricultural 
organizations have been in the forefront for the call for immigration 
reform for over a decade. In spite of repeated efforts by our industry 
and the development of a bipartisan proposal that has united workers 
and growers, Congress has repeatedly failed to act. Given actual 
shortages of legal workers and increasing enforcement activity, it is 
imperative that Congress pass a comprehensive bill that addresses 
agriculture's unique challenges this year. The consequences will be 
economic disruption in many agricultural communities and the exporting 
of our labor-driven agricultural production to foreign countries, along 
with all the upstream and downstream jobs.
    It is our sincere hope that Congress will expediently pass a 
comprehensive bill which will meet the needs of agricultural businesses 
throughout America and allow us to continue being a world leader in the 
production of agricultural products.
    Thank you for the opportunity to present my views and those of the 
FFVA on this critical issue.

    Ms. Lofgren. Thank you, Mr. Mixon.
    And we will turn now to Mr. Gay.

TESTIMONY OF JOHN F. GAY, SENIOR VICE PRESIDENT FOR GOVERNMENT 
   AFFAIRS AND PUBLIC POLICY, NATIONAL RESTAURANT ASSOCIATION

    Mr. Gay. Thank you, Chairwoman Lofgren, Ranking Member 
King. Thank you for allowing me to testify at this important 
hearing on behalf of the National Restaurant Association and 
the Essential Worker Immigration Coalition.
    I will cut to the chase. We have a serious demographic 
problem in the United States. Without an overhaul to our 
dysfunctional immigration system, we are in danger of not 
having the workers we need to grow our economy.
    Roughly speaking, the native-born population is at 
replacement level. That is, we are having enough babies to 
replace ourselves. But the demand for workers keeps going. My 
industry is a good example.
    Over the next 10 years, we estimate we are going to add 
200,000 jobs per year, 2 million jobs over 10 years. But the 
Government estimates that the U.S. workforce is only going to 
grow 10 percent.
    We are adding 15 percent to the number of jobs alone, and 
the Government estimates the workforce is growing at 10 
percent. The 16- to 24-year-olds that make up half of our 
workforce--that group of people is not growing at all over the 
next 10 years, according to the Government.
    And the restaurant industry is not alone. Other industries 
that traditionally provide employment to younger, lesser-
skilled workers are creating jobs as well.
    Of the Government list of the top 30 fastest-growing 
occupations, 22 of them require just on-the-job training. Only 
six require a bachelor's degree. The Nation needs an 
immigration policy that addresses the demand in all high-growth 
jobs. Right now, it doesn't.
    The legal channels available to employers are grossly 
insufficient. The number of green cards available for lesser-
skilled and unskilled workers, employment-based green cards, is 
5,000 per year.
    Is it any wonder, with a growing economy, there are 400,000 
to 500,000 people net coming illegally and staying in this 
country each year?
    Another problem is the worker verification system that 
satisfies no one. It doesn't satisfy workers. It doesn't 
satisfy employers. It doesn't satisfy you all. It doesn't 
satisfy others who are charged with enforcing our law. It is a 
mess, too.
    A system this dysfunctional requires comprehensive 
immigration reform. And from the perspective of the Essential 
Worker Immigration Coalition, we seek reform that is workable 
in several key elements.
    And I urge that you keep that concept of workability in 
mind as legislation moves through the process.
    Compromise is the lifeblood of policy-making, but the final 
result must be something that is workable for all stakeholders, 
workable for those who have to implement the new law, who have 
to enforce the new law, for U.S. workers, for employers and for 
foreign workers.
    We seek workable reform that addresses these elements: One, 
the undocumented. An estimated 5 percent of the U.S. workforce 
is undocumented. That fact of life alone should dictate that we 
seek some way for that group to earn permanent legal status.
    Number two, sufficient channels for new workers. The flow 
of the undocumented into this country has been readily absorbed 
by a growing economy that now stands with an unemployment rate 
of 4.5 percent. This gives us an idea of the numbers of illegal 
flow that should be replaced by safe, orderly and legal flow.
    New workers should come to the U.S. only after American 
workers are given first chance at the job. They should come in 
with the same pay and protections as U.S. workers, including 
the right to organize.
    And workable immigration reform overall should come as a 
complement to the U.S. workforce, not at the expense of the 
U.S. workforce.
    Number three, an employment verification system and 
enforcement. We need a system that functions efficiently for 
small business and large business.
    We need bright lines so businesses know the rules they have 
to follow. We need safe harbors for employers that do the right 
thing. And we need penalties that deter without being 
unreasonable.
    And finally, number four, border security. We must control 
our borders. Creating a legal way for the economy to get the 
workers it needs would be the best single thing we could do to 
decrease pressure at the border, but it is not the only thing 
that needs to be done. More steps must be taken.
    However, we must be careful in structuring a system that 
requires certain border--a bill that requires certain border 
security measures to be in place before new worker programs or 
legalization programs are in effect.
    We must be careful that those triggers are reasonable, 
attainable, and not subject to future legislative mischief.
    Business can't tell you how many border patrol agents 
should be on the border, how many miles of fencing that we 
need, but we do understand that if there are triggers set where 
worker programs don't start before triggers are met, we don't 
get anything if those triggers are not attainable.
    In conclusion, what is needed and the challenge you face as 
legislators is creating an immigration system that addresses 
the needs of the economy.
    If we want the economy to grow, we--and by we, I mean you--
need to figure out how many workers it needs to grow--high-tech 
workers, lesser-skilled, unskilled workers, agricultural 
workers--how many workers are needed to grow, and design an 
immigration policy that meets that need.
    Thank you very much.
    [The prepared statement of Mr. Gay follows:]
                   Prepared Statement of John F. Gay
    Chairwoman Lofgren, Ranking Member King, thank you for allowing me 
to testify at this important hearing on the impact of immigration 
policy on business. I will be testifying on behalf of the National 
Restaurant Association and the Essential Worker Immigration Coalition, 
which I co-chair.
    Founded in 1919, the National Restaurant Association is the leading 
business association for the restaurant industry. The Association's 
mission is to represent, educate and promote a rapidly growing industry 
that is comprised of 935,000 restaurant and foodservice outlets 
employing 12.8 million people.
    Created in 1999, the Essential Worker Immigration Coalition 
(EWIC.org) is a coalition of more than 50 trade associations, 
businesses and other organizations from across the industry spectrum 
concerned with the shortage of lesser-skilled and unskilled 
(``essential worker'') labor.
    I'll cut to the chase: We have a serious demographic problem in the 
United States. Without an overhaul to our dysfunctional immigration 
system, we are in danger of not having the workers we need to grow our 
economy.
    Roughly speaking, the native born U.S. population is virtually at 
replacement level--we are having enough babies only to replace 
ourselves. But the demand for workers grows.
    The restaurant industry, for example, is the nation's second-
largest private sector employer, and we have been a job creation 
machine. The U.S. economy added 8 million net new jobs in the last 45 
months. More than one in eight of those jobs were in the restaurant and 
foodservice sector. And our industry supports an estimated 7 million 
other jobs in industries such as manufacturing, agriculture and 
construction. We estimate that every dollar spent by consumers in 
restaurants generates an additional $2.34 spent in out nation's 
economy.
    Our industry is proud to give almost one third of Americans their 
first job. In many ways, we are America's job training program, 
teaching those born here and those from abroad skills necessary to 
succeed. And our industry provides those with drive and ability a path 
to higher success--management or ownership. Four in five salaried 
restaurant managers began their careers as hourly employees.
    That job-creation machine needs to keep going. At the National 
Restaurant Association, we estimate that our sector will add 2 million 
jobs over the next decade, a 15 percent increase in our workforce. Over 
the same period, the Bureau of Labor Statistics estimates that the U.S. 
labor force will grow only 10 percent. And the number of 16- to 24-
year-olds--a group that makes up about half of the restaurant 
industry's workforce today--will not grow at all.
    The restaurant industry is not alone. The BLS estimates that 
employment of janitors and cleaners, for example, will grow by 440,000 
jobs over the next decade. Employment for home health aides will grow 
by 350,000.
    Industries that traditionally provide large numbers of jobs to 
younger, lesser-skilled workers will have more and more trouble finding 
employees. These are essential jobs for our economy and essential in 
moving people up the job ladder. These industries are also creating 
significant job growth.
    The Bureau of Labor Statistics lists the 30 fastest-growing 
occupations between 2004 and 2014. Twenty-two of those 30 occupations 
require just on-the-job training. Half of the 30 require only short-
term on-the-job training. Just six require a bachelor's degree or 
higher education. The nation needs an immigration policy that reflects 
the growing demand in these jobs.
    Long-term economic forecasts may be a topic for debate, but our 
nation's demographic picture and challenges are very clear. If we know 
how many eight-year-olds are in the country today, we have a very good 
idea how many 18-year-olds will be entering the workforce in a decade. 
It is said that demographics are destiny. We ignore these facts at our 
economic peril.
    Some say, ``Just pay more and you'll get workers.'' It is not that 
simple. We face a shortage of workers that is being felt not just at 
the low end of the wage scale. Construction jobs, for example, average 
over $21 an hour and are going unfilled.
    If America is not producing enough workers to sustain our growth, 
where are we getting people to fill the jobs? From abroad. The problem 
is that the legal channels available to employers are grossly 
insufficient. The number of green cards available for lesser-skilled 
workers is 5,000 per year. There is not even a non-immigrant visa 
program to bring in such workers for longer than one year. Is it any 
wonder that there are an estimated 400,000 to 500,000 undocumented 
immigrants coming into the United States, and staying here, each year?
    Another major problem is a worker verification system that 
satisfies no one--not employers, not workers, not the government.
    Against their will, employers were drafted into the nation's 
immigration police force in 1986. And for the last 20 years, we have 
been dealing with an employee verification system that makes the 
employer walk a fine line between potentially forged documents on one 
side and risk of discrimination action on the other.
    When an employee is hired, the employer must verify that person's 
authorization to work in the United States by filling out an I-9 form. 
The rules are complicated and, at times, contradictory.
    New employees are asked to produce documentation verifying identity 
and work authorization. They have 25 documents to choose from. The 
dizzying array includes school identification cards, U.S. Coast Guard 
Merchant Mariner cards, and Native American tribal documents. These are 
divided into three columns. An employee can produce one from Column A--
which lists the documents that prove both identity and work 
authorization. Or, the employee can produce one each from Column B--
which proves identity and one from Column C--which proves work 
authorization. If the document looks facially valid, the employer must 
accept it.
    Suppose you are an employer that wants to go the extra mile to make 
sure the employee is work authorized? Should you ask for a specific 
document from the list, one you are more familiar with than, say, a 
U.S. Coast Guard Merchant Mariner card? That's against the rules. 
Should you ask for an extra document, just to be sure? That's against 
the rules too.
    An immigration system this dysfunctional requires a comprehensive 
overhaul.
    There are few subjects as far-reaching as immigration. From 
national security to humanitarian concerns to economics: there are many 
issues, many voices, many stakeholders.
    From the perspective of the Essential Worker Immigration Coalition, 
we seek comprehensive immigration reform that encompasses several key 
elements. Each of these elements must be workable. I urge you to keep 
that key concept--workability--in mind as this legislation moves 
through the political process. Compromise is the lifeblood of 
policymaking, but it must produce a new immigration system that is 
workable--for those who must implement it, for those who must enforce 
it, for employers, for U.S. workers and for foreign workers.
    We seek workable reform that addresses the following key elements:
                            the undocumented
    An estimated 5 percent of the U.S. workforce is undocumented. That 
economic fact of life should dictate that reform include
    a path for a great many to earn legal status--after paying a 
penalty and after meeting significant requirements such as learning 
English and going through security screening.
    We believe that fair reform requires the undocumented to start at 
the back of the line for permanent residency. That process will take 
years. We believe workable reform should allow them to stay on the job 
and with their families while waiting for the process to move forward.
    The program also must provide sufficient certainty to the 
undocumented worker that it is in his or her interest to come out of 
the shadows. It is in everyone's interest to maximize the number of 
undocumented individuals who participate in this process. The best way 
to do that is with the carrot, not the stick.
    There has been quite a battle over the definition of the word 
amnesty. The American Heritage Dictionary defines amnesty as ``a 
general pardon granted by a government, especially for political 
offenses.''
    Levying a fine, requiring background checks, requiring back payment 
of taxes, requiring continued work, requiring people to learn English, 
and requiring them to meet these obligations over a number of years in 
order to earn a green card doesn't sound like a ``general pardon.'' It 
sounds a lot more like a tough plea agreement followed by lengthy 
parole.
    The immigration reform bill President Reagan signed in 1986 was 
amnesty. The current proposal is different: It includes penalties and a 
series of substantive obligations before people have a shot at applying 
for legal status. This is very different than what happened in 1986.
               sufficient legal channels for new workers
    As I mentioned earlier, the net flow of undocumented individuals 
into the United States has been estimated at somewhere between 400,000 
and 500,000 per year. This flow has been readily absorbed by a U.S. 
economy with low unemployment, presently around 4.5 per cent. This 
gives us an idea of the illegal flow that should be replaced by a safe, 
orderly, legal flow though workable, comprehensive immigration reform.
    New workers should come into the United States only after American 
workers are given first chance at any job opening. These workers should 
come in with the same pay and protections as U.S. workers, including 
the same ability to organize in unions. Workable immigration reform 
should come as a complement to the U.S. workforce, not at the expense 
of the U.S. workforce.
    Workable immigration reform should also provide a sufficient 
channel for seasonal and temporary workers to meet ongoing shortages. 
The current H-2B program has proven inadequate to address the need.
               employment verification system/enforcement
    We need a workable system for employment verification that 
functions for both small and large businesses. We need bright lines so 
businesses know the rules. We need safe harbors for employers who do 
the right thing, and we need penalties that deter without being 
unreasonable.
    At a more basic level, the verification system itself must work. 
The Basic Pilot system is not an encouraging model. With approximately 
15,000 employers participating, the error rate remains a concern 
despite significant efforts by the Department of Homeland Security to 
bring it down.
    What would happen if millions of American employers were required 
to run 140 million workers through a government system that was not 
ready? We believe that any verification system should be brought on 
line in stages, bringing one group of employers at a time into the 
system and allowing for tests of accuracy and efficiency before the 
next group of employers follows.
                            border security
    We must control our borders. The public demands this and they are 
right. Creating a legal way for workers to come into the United States 
will do more than any other single step to take the pressure off the 
border, but it is not enough. More steps will need to be taken.
    However, we must be careful in structuring a system that requires 
certain border-security measures to be in place before worker or 
legalization programs get started. Any such ``triggers'' must be 
reasonable, attainable and not subject to legislative mischief.
                             small business
    Small business deserves careful consideration in crafting workable 
immigration reform. The nation's small businesses are the engine of our 
economy. We must be wary of complex paperwork or document-retention 
requirements, high fees and fines, and intricate rules. A new 
immigration system will be hard enough for employers with full-time 
human-resources staff. Please keep in mind employers whose HR director 
also is the cook and dishwasher, and whose ``office'' may be an empty 
restaurant table.
                       the alternative to reform
    For business, the stakes are high. If Congress and the 
Administration fail to enact comprehensive immigration reform, the 
alternative for business is not the status quo. Employers face an 
escalating array of enforcement actions against them at the federal, 
state and local levels.
    Understandably frustrated by the lack of action at the federal 
level, states and localities have stepped in. At the National 
Restaurant Association, we count more than 1,150 immigration bills 
introduced in state legislatures this year, twice as many as last year. 
There are almost 100 additional proposals at the city and county level. 
Several states and localities have already enacted laws or ordinances 
directed at businesses, the undocumented, or both. Legislation signed 
into law in Oklahoma last month is the most recent example.
    The federal government also has escalated its enforcement 
activities and expanded their scope. The raid on Swift that made 
headlines recently was not an immigration-law action, but a raid 
targeting identity theft.
    The federal government also is considering stricter regulations on 
businesses. The U.S. Citizenship and Immigration Services of the 
Department of Homeland Security has drafted regulations regarding the 
legal obligations of employers upon receiving so-called ``no match'' 
letters from the Social Security Administration. This proposal will 
lead to the dismissal of many workers. Additional proposals are sure to 
come.
    Finally, we are concerned about Congress taking a piecemeal 
approach to reform if they cannot pass comprehensive reform. For 
example, during its recent minimum wage debate, the Senate passed an 
amendment that would have barred companies from federal contracts even 
for a single paperwork violation of immigration law. That amendment 
passed 94-0 with very little discussion. Thankfully, the provision was 
stripped out before final enactment, but it illustrates the danger.
    Employers should not have to deal with a patchwork of confusing and 
sometimes conflicting state and local immigration laws, overlaid with 
more enforcement and more rules at the federal level. None of these get 
to the underlying problem--a dysfunctional U.S. immigration system that 
does not match economic need.
                               conclusion
    What is needed, and the challenge you face as legislators, is an 
immigration system that reflects the needs of the economy.
    Picking an arbitrary number of immigrants to be allowed into the 
United States sets up a choice that is not in the U.S. national 
interest: allowing some industries the workers needed at the expense of 
other industries. It also sets up a conflict between family-based 
immigration and work-based immigration.
    Approximately 1 million people become permanent residents of the 
United States each year. That's about one-third of 1 percent of the 
U.S.'s population of 301 million. If legal immigration rose to 1.5 
million per year--a number that more accurately reflects the economic 
need--that would still be less than one-half of 1 percent of our total 
population.
    If we want the economy to grow, we will need workers. We urge 
policymakers to start there. Decide how much economic growth is 
desired, figure out how many workers of all kinds it will take to 
produce that growth, and set the immigration policy accordingly.
    Immigration is a complex, complicated problem. It deserves more 
than piecemeal solutions, more than a patchwork of regulation at 
various levels of government. It deserves a comprehensive solution from 
the people who have true responsibility for immigration law: Congress 
and the President.
    Thank you.
                               __________

                               ATTACHMENT

                 ewic principles for immigration reform
<bullet>  Reform should be comprehensive: addressing both future 
economic needs for future workers and undocumented workers already in 
the United States.

<bullet>  Reform should strengthen national security by providing for 
the screening of foreign workers and creating a disincentive for 
illegal immigration.

<bullet>  Reform should strengthen the rule of law by establishing 
clear, sensible immigration laws that are efficiently and vigorously 
enforced.

<bullet>  Reform should create an immigration system that functions 
efficiently for employers, workers, and government agencies.

<bullet>  Reform should create a program that allows hard working, tax 
paying undocumented workers to earn legal status.

<bullet>  Reform should ensure that U.S. workers are not displaced by 
foreign workers.

<bullet>  Reform should ensure that all workers enjoy the same labor 
law protections.
                    ewic immigration policy outline
A.  New Non-Immigrant Programs Based on Economic Needs

        <bullet>  A short-term program for industries that have short-
        term needs for one year or less.

        <bullet>  A long-term program that could be renewed if there 
        are continuing needs.
B.  New Immigrant Visa (Permanent Residence) Program Based Upon 
        Economic Needs

        <bullet>  Available to participants in either short-term or 
        long-term non-immigrant programs.

        <bullet>  Based upon petition by either Employer or Employee 
        through a test of the U.S. labor market.

        <bullet>  With sufficient numbers of immigrant visas.

        <bullet>  New employment-based permanent visas should not come 
        at the expense of other immigration categories.
C.  Mechanism for Undocumented Workers in the U.S. to Earn Legal Status

        <bullet>  Establish a mechanism to allow undocumented, 
        taxpaying and otherwise admissible workers in the U.S. to earn 
        a legal status.

        <bullet>  Define clear requirements and obligations for 
        eligible and qualified participants.

        <bullet>  Conversion to lawful status should be based upon 
        employability, although not necessarily a particular employer.
D.  Workable Immigration Enforcement System

        <bullet>  Enforcement of immigration laws is critical for 
        economic, national security and for successful comprehensive 
        immigration reform.

        <bullet>  Pairing enforcement with an updated legal immigration 
        system to reduce undocumented immigration will result in 
        adequate screening of the workforce, more control over 
        undocumented workforce, and a shift in focus to the very small 
        percentage of bad actors who seek to abuse the system.

        <bullet>  Enforcement reform should clearly define requirements 
        and obligations for all parties.

        <bullet>  New enforcement regimes must not penalize employers 
        for their past inability to comply with a broken system.
E.  Funding for Immigration programs

        <bullet>  Dedicate resources to fund continuing program 
        initiatives.

        <bullet>  Provide start-up funding for structuring and 
        implementing new program.
              ewic essential worker immigration coalition
Membership List
American Health Care Association
American Hotel & Lodging Association
American Immigration Lawyers Association
American Meat Institute
American Nursery & Landscape Association
American Road & Transportation Builders Association
American Staffing Association
American Subcontractors Association, Inc.
Associated Builders and Contractors
Associated General Contractors
Building Service Contractors Association International
California Landscape Contractors Association
California Professional Association of Specialty Contractors (CALPASC)
Carlson Hotels Worldwide and Radisson
Carlson Restaurants Worldwide and TGI Friday's
Farm Equipment Wholesalers Association
Federation of Employers & Workers of America
First Data
Golf Course Superintendents Association of America
Harborside Healthcare Corporation
Ingersoll-Rand
International Association of Amusement Parks and Attractions
International Franchise Association
Marriott International, Inc.
Nath Companies
National Association for Home Care
National Association of Chain Drug Stores
National Association of Home Builders
National Association of RV Parks & Campgrounds
National Chicken Council
National Club Association
National Council of Chain Restaurants
National Restaurant Association
National Retail Federation
National Roofing Contractors Association
National Tooling & Machining Association
National Wooden Pallet and Container Association
Outdoor Amusement Business Association
Pilgrim's Pride Corporation
Plumbing-Heating-Cooling Contractors--National Association
Professional Landcare Network
Retail Industry Leaders Association
Small Business & Entrepreneurship Council
Society of American Florists
The Brickman Group, Ltd.
Travel Business Roundtable
Travel Industry Association of America
Tree Care Industry Association
Truckload Carriers Association
Tyson Foods, Inc.
United Fresh Produce Association
US Chamber of Commerce

    Ms. Lofgren. Thank you, Mr. Gay.
    And all three witnesses have stopped when the yellow light 
was on. That is pretty impressive.
    I am going to turn now to Mr. Hawkins, and we would love to 
hear from you.

        TESTIMONY OF WILLIAM R. HAWKINS, SENIOR FELLOW, 
               U.S. BUSINESS AND INDUSTRY COUNCIL

    Mr. Hawkins. I claim their excess time--no. I am William 
Hawkins. I am here representing the U.S. Business and Industry 
Council. We are a group of businesses who are primarily small-
and medium-sized manufacturers.
    And our view is a little different on this. I notice that 
according to the Census Bureau, 14 percent of illegal 
immigrants, which is the focus of the main reform here that is 
pending in the Senate, are in manufacturing.
    And this is very odd to us, because manufacturing has lost 
3 million jobs over the last decade. There is no labor shortage 
in manufacturing.
    There are millions of displaced workers who would love to 
get a job back in their factory, because they have not been 
able to find jobs that are comparable to what they have lost. 
Yet there is still this influx of illegal workers in 
manufacturing.
    In fact, this is a problem, I think, generally. There may 
be specific segments--maybe agriculture is one--but as a former 
economics professor who taught labor for years, the 
characteristics that we see in the low end of the labor pool do 
not indicate that there is a shortage; just the opposite. It 
indicates there is a surplus.
    Unemployment rates are higher in this segment than they are 
for the average economy. Wages are not going up. If there is a 
shortage in any market, the effect is to push the prices up or 
wages up in that market. Wages are falling at the low end of 
the labor pool.
    In fact, you had a fellow from the Congressional Budget 
Office testify before you last month, and he tried to make 
light of the fact that well, you know, it is only falling 
somewhat, maybe 10 percent.
    But in a growing economy, it should not be falling at all. 
It should be rising. Demand should be pushing up wages if there 
is anything like a shortage.
    What we see instead really is an attempt to maintain a 
surplus to push wages down. And this is troubling to us for a 
couple of reasons, or several reasons, actually.
    One is it puts our business owners in a quandary. It is a 
very competitive market in manufacturing, a lot of it mainly 
from foreign competition.
    But if you are a manufacturer and your rival is using 
illegal immigrants and paying them less, less in benefits, less 
in pay, how do you respond?
    Do you meet the competition and go illegal yourself? If you 
are an honest businessman, do you want to be forced into doing 
that? We don't want to.
    It hasn't grown quite as high in manufacturing as in other 
areas, but the logic is still there. And you should not have a 
system that puts pressure on honest businessmen to become 
dishonest, which is what we have been doing.
    Next, there is a cost element here. There is no such thing 
as cheap labor for society, for us as a general population, 
because we are an advanced society.
    If people do not make a living wage--and most of the people 
we are talking about in the illegal, low-wage, low-educated, 
low-skilled area do not--we supplement that.
    We have welfare programs. We have income supplement 
programs. We have a variety of public goods, education, 
emergency medical care, et cetera, which these people do not 
pay the taxes to support. Their income isn't high enough to 
qualify as taxpayers.
    So we are subsidizing this labor. It is not cheap labor. It 
is subsidized labor.
    And our business owners, our employees, our customers, 
people in general who do pay taxes--and in the case of our 
business owners, substantial taxes--are having to make up this 
difference and subsidize--in some cases, subsidize their 
competitors who are using illegals. So that has to be changed.
    And one of the problems with this reform is it is not 
really a reform. It simply codifies, regularizes the failures 
of the past.
    And it is not just an amnesty for the illegal workers. It 
is an amnesty for those companies who have been employing the 
illegal workers and have been violating the law themselves. And 
that rubs our members who are honest and who have been 
following the law the wrong way.
    If we step back a little further and look at the economy in 
general, there is a basic principle in economics, labor-capital 
substitution. They are factors of production. They are 
substitutes.
    If you have a large pool of cheap labor at the firm level, 
that can retard technological progress, retard the adoption of 
new labor-saving devices, because that is what technology is. 
It is labor-saving devices.
    And it is chosen because labor is expensive. Labor has 
always been expensive in the United States. And it has been a 
propellant for innovation and technological progress.
    In my written testimony, I mention some studies that have 
been done on this, most notably one from the Federal Reserve 
Bank of Philadelphia, which concluded that in manufacturing, an 
influx of large, low-skill, low-wage immigrant labor not only 
retarded the adoption of new technology----
    Ms. Lofgren. If you could summarize----
    Mr. Hawkins  [continuing]. It even led to the de-adoption 
of technology, which is absolutely contrary to progress.
    Ms. Lofgren. The gentleman's time has expired. If you could 
summarize, and your full statement is part of the written 
record.
    Mr. Hawkins. Okay. Well, it is just that we are moving----
    Ms. Lofgren. I don't want to cut you off mid-sentence.
    Mr. Hawkins. Right. Okay. The summation is that we need to 
move our labor policies in the opposite direction than we have 
been doing in immigration.
    We need high-end, high-skilled, high-wage work, not this 
low-end labor.
    [The prepared statement of Mr. Hawkins follows:]
                Prepared Statement of William R. Hawkins
    Chairwoman Lofgren, Ranking Member King, members of the 
subcommittee, thank you for inviting me to present a business 
perspective on the immigration issue.
    I am William Hawkins, Senior Fellow at the United States Business 
and Industry Council. The USBIC is an association of approximately 
1,500 small and medium sized U.S. companies engaged in a wide variety 
of manufacturing and services. Our member business owners and CEOs 
consider themselves first and foremost to be citizens of the United 
States. As such, they are concerned with the long-term security and 
prosperity of the United States, both of which are factors in the 
current debate over immigration policy and border security.
    America has benefitted from immigration, indeed, it is a country of 
immigrants who founded colonies on the Atlantic coast and then advanced 
across the continent. But immigration policy must keep in focus the 
needs of the country. Current policy has failed to do this. The 
acceptance of an open southern border has allowed foreigners to set de 
facto policy in contradiction to the de jure policy of the U.S. 
government. The result has been a flood of low-skilled illegal 
immigrants who can contribute little to the real economic progress of 
the United States. For example, in 1960, recent immigrants were no more 
likely than were non-immigrants to lack a high school degree. By 1998, 
recent immigrants were almost four times more likely to lack a high 
school degree than were non-immigrants, and the situation has only 
worsened as the wave of illegal immigration has risen higher since 
2000. \1\
---------------------------------------------------------------------------
    \1\ George J. Borjas, Heavens Door: Immigration Policy and the 
American Economy (Princeton, N.J.:Princeton University Press, 1999), p. 
27.
---------------------------------------------------------------------------
    The Senate proposal (S. 1348) would ratify and codify this broken 
system, not correct it. The new Z visa category, which will be issued 
only to illegal immigrants, will allow them to legally live and work in 
the United States while their cases are being reviewed. It is clearly 
an ``amnesty'' both for the illegal immigrants and for the firms that 
illegally hired them. Another provision would confer permanent resident 
status adjustment for a qualifying illegal alien (and the spouse and 
children of such alien) who has been in the United States for five 
years and employed for specified periods of time. It thus locks in 
place a largely impoverished class of people as the legacy of past 
failed policy.
    Even with the economy now adding jobs, the number of Americans who 
fell into poverty stabilized at 12. 6 percent in 2005 after 4 years of 
consecutive increases--higher than the most recent low of 11.3 percent 
in 2000 (according to Census Bureau figures). The Census Bureau also 
shows that in 2005, the most recent year data is available, Hispanic 
men had median earnings of only $27,380 compared to $48,693 for Asian; 
$46,807 for White; and $34,433 for Black men. The median income for 
Hispanic men was not much above the median for men with less than a 
high school education ($22,138). Median income for all men with a high 
school degree was $31,683. \2\
---------------------------------------------------------------------------
    \2\ Bruce H. Webster Jr and Alemayehu Bishaw, Income, Earnings, and 
Poverty Data From the 2005 American Community Survey, Bureau of the 
Census, August 2006. Pp. 10, 13. http://www.census.gov/hhes/www/income/
income.html
---------------------------------------------------------------------------
    These statistics indicate that even after 22 straight quarters of 
economic growth (albeit the revised first quarter of 2007 was only 0.6 
percent of GDP), the kind of jobs that are created, and the education 
and skills of workers available, make a difference as to whether living 
standards are being raised and whether the country is really moving 
forward. The May household survey of employment, which includes the 
self employed, indicates another 52,000 adults left the labor force, as 
the ranks of discouraged workers continue to swell. According to Peter 
Morici, Economics Professor at the Robert H. Smith School of Business, 
University of Maryland, ``Low wages are discouraging many adults, who 
prefer to draw down assets or rely on incomes of spouses rather than 
accept substandard employment at poor wages and with few benefits. The 
unemployment statistics do not reflect this reality, though it is 
importantly responsible for lackluster GDP growth, terrible U.S. 
savings performance, Americans borrowing from foreigners at a pace of 
$50 billion per month, and a U.S. debt to foreigners now topping $6 
trillion.'' \3\
---------------------------------------------------------------------------
    \3\ Available at http://www.smith.umd.edu/lbpp/faculty/morici.htm.
---------------------------------------------------------------------------
    One of the factors which is encouraging some business firms to hire 
is the availability of so-called ``cheap'' labor, much of it from 
illegal immigrants. According to an article in the November/December 
2003 issue of Southwest Economy published by the Federal Reserve Bank 
of Dallas, ``Immigrants overwhelmingly filled blue-collar jobs 
(operators, fabricators and laborers) but also accounted for as much as 
half the growth in categories such as administrative support and 
services. . . . It also means that as immigrants entered these 
occupations, native workers exited.'' \4\ This was particularly true in 
the blue collar category where immigrants accounted for nearly 700% of 
the new jobs! That means they pushed tens of thousands of Americans out 
of those jobs, by underbidding their wages.
---------------------------------------------------------------------------
    \4\ ``U.S. Immigration and Economic Growth: Putting Policy on 
Hold'' Southwest Economy, Federal Reserve Bank of Dallas, November/
December 2003. pp. 1-7. http://www.dallasfed.org/research/swe/2003/
index.html
---------------------------------------------------------------------------
    Has this process enriched the country? Has it improved living 
standards? No, it has clearly not. In the words of economics columnist 
Robert J. Samuelson, ``Since 1980 the number of Hispanics with incomes 
below the government's poverty line (about $19,300 in 2004 for a family 
of four) has risen 162 percent. Over the same period, the number of 
non-Hispanic whites in poverty rose 3 percent and the number of blacks, 
9.5 percent. What we have now--and would with guest workers--is a 
conscious policy of creating poverty in the United States while 
relieving it in Mexico. By and large, this is a bad bargain for the 
United States.'' \5\
---------------------------------------------------------------------------
    \5\ Robert J. Samuelson, ``We Don't Need Guest Workers'' The 
Washington Post, March 22, 2006, p. A21.
---------------------------------------------------------------------------
    The great success story of the United States is that it raised the 
working class into the middle class, the real path to higher standards 
of living for the population as a whole. But there are those in the 
business community who seem to think the American achievement has been 
overdone. In their view, we need more poverty, not less.
    To many businessmen, cutting labor costs by reducing wage levels 
seems expedient. And in an economy where the laws against illegal 
immigration have collapsed, there is even competitive pressure on firms 
to match what rivals may be doing, even if otherwise law-abiding owners 
and managers may personally find the practice troubling. Firms that 
hire illegal workers for lower wages, fewer (if any) benefits, and 
sometimes off the books entirely, do so to gain a competitive advantage 
against firms that obey the laws and only hire within the legal labor 
market. Honest business owners are placed in the difficult position of 
having to choose between emulating the unlawful behavior of rivals or 
risking the survival of their own companies. No one should condone a 
system that creates this kind of ethical dilemma.
    The proper way to cut labor costs per unit of output is to increase 
productivity, a process that boosts workers incomes and company profits 
at the same time, and which is the only way to elevate the living 
standards of an entire society. The unregulated availability of cheap 
labor leads away from innovation. Technological progress is promoted by 
the pursuit of ``labor saving'' methods in markets where labor supplies 
are tight and expensive.
    A research report from the Federal Reserve Bank of Philadelphia 
looked at whether the availability of cheap, unskilled workers with 
limited educations slowed the adoption of new technology. The paper 
entitled ``Immigration, Skill Mix, and the Choice of Technique'' by FRB 
economist Ethan Lewis, concluded, ``Using detailed plant-level data 
from the 1988 and 1993 Surveys of Manufacturing Technology, we found in 
both 1988 and 1993, in markets with a higher relative availability of 
less skilled labor, comparable plants--even plants in the same narrow 
(4-digit SIC) industries--used systematically less automation. 
Moreover, between 1988 and 1993 plants in areas experiencing faster 
less-skilled relative labor supply growth adopted automation technology 
more slowly, both overall and relative to expectations, and even de-
adoption was not uncommon.'' \6\ De-adoption! There is no positive spin 
for a retreat from technological progress.
---------------------------------------------------------------------------
    \6\ Ethan Lewis, ``Immigration, Skill Mix, and the Choice of 
Technique'' Working Paper 05-8, Federal Reserve Bank of Philadelphia, 
May 2005, p. 3
---------------------------------------------------------------------------
    Dr. Lewis continued, ``Manufacturing automation is particularly 
suited to evaluating the impact of immigration because less-skilled 
workers in SMT-covered industries, especially immigrants, are 
concentrated in labor-intensive assembly, welding, and other tasks that 
these technologies replace. . . . The combined data show that, in two 
separate cross sections, the higher the relative number of workers who 
were high school dropouts in a metropolitan area, the less automated 
the plants in the area were. In addition, between 1988 and 1993, 
plants' use of technology grew more slowly, both overall and relative 
to forecasts, where the relative number of dropouts in the local work 
force grew more quickly.''
    This is not just a problem for manufacturing, but for agriculture 
as well. Philip Martin, a professor of agricultural and resource 
economics at the University of California-Davis, has argued, ``Once a 
guest worker program is in place, farmers invest in lobbying to 
maintain the program, not in labor-saving and productivity-increasing 
alternatives.'' \7\ Cheap labor may look like the easy solution, but it 
is not the best solution for a society that wants to progress. And for 
most businesses, a high-income economy is a much better market for 
their goods and services.
---------------------------------------------------------------------------
    \7\ Philip Martin, ``Guestworker Programs for the 21st Century'' 
Center for Immigration Studies, April 2000. http://www.cis.org/
articles/2000/back400.html
---------------------------------------------------------------------------
    Though some business firms lust after cheap labor, in an advanced 
society such as ours, there is no such thing. There is only subsidized 
labor. When workers cannot earn a living wage, society steps in to make 
up the difference through a variety of transfer payments administrated 
by governments at all levels and paid for by taxpayers. Society also 
provides a wide variety of ``public goods'' to all residents. That 
means our business owners, their employees and their customers--all of 
whom are substantial tax payers, are subsidizing those firms that are 
using ``cheap'' labor either to fatten their bottom lines or gain an 
edge over more responsible firms.
    The higher costs for health, education, and welfare, not to mention 
crime control, that result from such a large increase in the number of 
people living in poverty is substantial. This financial pressure is 
already undermining state and local governments, school systems, and 
hospitals. Robert Rector of the Heritage Foundation has concluded that 
the Senate bill ``would be the largest expansion of the welfare state 
in 35 years.'' His research shows ``the U.S. has imported poverty 
through immigration policies that permitted and encouraged the entry 
and residence of millions of low-skill immigrants.'' \8\ His latest 
calculation concludes, ``There are currently 4.5 million low-skill 
immigrant households in the U.S., containing 15.9 million persons, 
roughly 5 percent of the U.S. population. At each age level, low-skill 
immigrant households receive substantially more in government benefits 
than they pay in taxes. Overall, low-skill immigrant households impose 
a net cost of $89 billion per year on U.S. taxpayers.'' \9\
---------------------------------------------------------------------------
    \8\ Robert Rector, ``Amnesty and Continued Low Skill Immigration 
Will Substantially Raise Welfare Costs and Poverty'' Heritage 
Foundation Backgrounder #1936, May 12, 2006. http://www.heritage.org/
Research/Immigration/bg1936.cfm
    \9\ Robert E. Rector and Christine Kim, ``The Fiscal Cost of Low-
Skill Immigrants to the U.S. Taxpayer'' Heritage Foundation, Special 
Report #14, May 22, 2007. http://www.heritage.org/research/immigration/
SR14.cfm#_ftn22
---------------------------------------------------------------------------
    Society advances by alleviating poverty, not by importing more of 
it.
    If one looks around the world at those countries with the worst 
living standards, their problem is clearly not a lack of cheap labor. 
Indeed, their problem is that cheap labor is all they have. What they 
need is capital investment in advanced methods. Economic theory, 
however, argues that managers will use the least-cost method of 
production, and when labor is the abundant factor, labor-intensive 
methods will be chosen over capital-intensive methods that use 
relatively expensive technology. This can restructure an entire economy 
in the wrong direction. America's shift from a manufacturing economy 
where scientific progress is most fruitful, to a service economy 
dominated by cheap labor fits the model of a country in long-term 
decline.
    The United States needs to choose which path it wants to follow. 
America has historically been an economy short on labor. Until the 
frontier closed a century ago, there were never enough people to 
utilize all the land, resources, and business opportunities available. 
The emphasis was thus on boosting productivity, substituting capital 
for labor in both field and factory, to make the best use of the 
working population.
    The one exception was the pre-Civil War South, which used slave 
labor. The slave-owners prospered on their plantations, but the South 
as a whole stagnated. To defend their reactionary system, their 
political leaders even tried to undermine the policies that promoted 
the much more productive development of Northern industry and Midwest 
agriculture. The Civil War was as much a contest of economic systems as 
soldiers, and the Confederacy lost that ``audit'' in decisive fashion.
    A guest worker program where applicants would have to qualify under 
a point system that places a priority on advanced skills, education, 
English proficiency, and experience in high-demand occupations would be 
a great improvement over past policies that simply rewarded people for 
their ability to cross an open border. However, the guest worker 
proposal is also being billed as a substitute for current illegal 
immigration, which means it would still be oriented mainly towards the 
low end of the labor pool. It would thus further extend into the future 
the failed policies of the past, only with government approval.
    Certainly, the argument that a robust guest worker program would 
end illegal immigration is untenable. The Wall Street Journal's claim 
in a May 30 editorial that the ``vote last week to halve the size of a 
guest-worker program for low-skilled workers is a big step in the wrong 
direction; skimping on visas will only lead to more illicit border 
crossings'' implies that there should be a program large enough to soak 
up all the low-skilled foreigners who want to come to the United 
States. But even the original proposal for 400,000 guest workers per 
year would not accomplish that. And if the program was really 
``reformed'' to favor higher-skilled workers' as it should be, then the 
millions of unskilled foreigners who still want to come here would not 
qualify. They would still seek to cross into the country illegally.
    No system, regardless of its specific provisions, will work if it 
is still possible to come to America and operate outside the system. 
Thus a prerequisite for any program must be border security and 
interior enforcement. The border must be made as impenetrable as 
fencing, technology and patrolling can make it, and this must be the 
first priority of any immigration policy proposal. These steps are also 
vital to combat terrorism and drug trafficking, the latter being 
closely intertwined with people smuggling. But no static defense is 
perfect, so there must be rigorous enforcement inside the country as 
well, especially against business firms that hire or assist illegal 
aliens in maintaining themselves in the United States outside the law. 
Honest businessmen should welcome a crackdown on those rival firms that 
flaunt the law to gain an unfair competitive advantage. And the 
American public will not consider any immigration policy to be credible 
until they see actual results on the border.
    The kind of economic progress that leads to higher living standards 
needs to be the objective of U.S. policy. To keep on that upward path, 
the flood of unskilled and impoverished aliens needs to be halted 
before they further drag down American living standards. National 
legislation, and its enforcement, must overrule the short-sighted 
inclinations of some in the business community who would push off on 
others the true cost of their operations. Maximizing output per worker, 
rather than merely the number of workers, is the right way to advance 
American civilization.

    Ms. Lofgren. The gentleman's time has expired.
    And we appreciate the testimony of all of the witnesses.
    We now will go to questions from the Members of the 
Subcommittee, each of us staying within a 5-minute time frame, 
and I will begin.
    I am going to ask you, Mr. Bock, about Google. And I know, 
although not everyone maybe knows as I do, because I live in 
Santa Clara County--and actually, my son is currently an 
undergraduate at Stanford, and my daughter was a recent grad. I 
think Google must hire half the graduating class at Stanford. 
So I know the kind of job growth that Google has fueled.
    You focused on the H-1B program, and in reading your 
testimony, I note that Orkut, who did your terrific new 
development on the 20 percent time, and Krishna, who is your 
principal scientist--I mean, these are really pretty impressive 
people. Both got their degrees from American universities, but 
they went on the H-1B program. They wanted to stay, obviously, 
because they are still here.
    Would it be true that if the permanent visa system had 
enough visas and was simplified that you might use that instead 
of the H-1B program? I mean, it looks like you are using it 
because the H-1B program, when there are visas available, 
actually is pretty quick, and then people transition into their 
permanent visas.
    And if we could just cut to the chase and get people their 
permanent visas without a tremendous delay, would that work 
well for Google?
    Mr. Bock. I think there are a couple of components. I think 
we would welcome more opportunities to recruit more of the top 
talent from around the world from U.S. universities.
    The majority of candidates for math, computer science, and 
other science-related degrees come from outside the U.S.
    And we would be tremendously excited about the opportunity 
to bring more of those on board, not just for ourselves but for 
the technology industry in general.
    I am not familiar enough with the nuance of the differences 
between the H-1B visa and----
    Ms. Lofgren. Okay.
    Mr. Bock  [continuing]. The permanent visa program, but we 
can get back to you with a more thoughtful response.
    Ms. Lofgren. That would be fair. And if you know the answer 
to this question--if you don't, if you could get back to me on 
this.
    I have been asking Silicon Valley companies what percentage 
of their H-1B visa holders are graduates of American 
universities as compared to graduates of universities from 
another country. Do you happen to know the answer for Google?
    It is about 80 percent for most of the Valley companies.
    Mr. Bock. I don't know the precise answer. I expect our 
number would be roughly comparable to that.
    The bulk of our recruiting for our campus graduates and 
even experienced engineers is focused on people who have gone 
to U.S. universities, which is often how we find them. So it is 
very roughly about 75 percent.
    Ms. Lofgren. Okay, so it is in keeping with the rest of 
Silicon Valley.
    Now, I don't know if you have had a chance to take a look 
at this point system that the Senate is looking at. We all had 
the Memorial Day recess. I spent it in Silicon Valley getting 
an earful from CEOs in technology companies.
    Would sole reliance on a point system as currently exists 
in the Senate bill--would that work for Google, in your 
judgment? Or if you can't answer that today, tell me so and you 
can come back to us on that.
    Mr. Bock. I think our perspective on that question of 
whether the currently proposed point system would work is that 
it has some intriguing elements to it, but the dynamism of the 
technology business is such that it would be very difficult to 
say, ``Yes, the system works today, and it will work for the 
following 8 years.''
    Ms. Lofgren. Right.
    Mr. Bock. If you think back 9 years ago, Google did not 
exist. Internet search was a nascent industry. And Larry and 
Sergey, when they had 50 people in the year 1998, would have 
been hard-pressed to specify exactly what combination of skills 
they would be looking for.
    So I think it would be a bit of a challenge.
    Ms. Lofgren. I appreciate that feedback.
    Now, I am intrigued, Mr. Gay, by your testimony. The phrase 
is, ``Demographics is destiny.'' And you have just taken a look 
at the birthrate and the projected--putting immigration to one 
side, and the projected job rates, and come up with a 
shortfall.
    Could you elaborate on our understanding of that? And I 
know you are just speaking for the restaurant industry, but 
have you, as part of your Essential Worker Coalition, taken a 
look at other industries in that demographic issue?
    Mr. Gay. Well, Madam Chair, as I mentioned, there are other 
industries, not just restaurants, that are in this category of 
ones that traditionally hire or have historically hired those 
lesser-skilled or unskilled.
    In our case, we give one-third of those people in the U.S. 
their first job. But we are looking ahead as we grow, and we 
see that the U.S. population is not keeping up with that 
growth.
    If we look at Europe and at Japan, they are facing the same 
thing, but they are doing it much more poorly than we are, 
because they have a lot more trouble with immigration than we 
do.
    We don't want to get to that situation where we restrict 
immigration so much that we either stagnate or end up shrinking 
as an industry or as an economy.
    Ms. Lofgren. So you are really saying that our--if I could 
put words in your mouth, our benefit is we have got a 
demographic problem, Europe has too, Japan does, but we can--
part of why we are successful is people come here to become 
Americans, and do become Americans, and that has not been the 
pattern in some other parts of the world.
    Mr. Gay. Right. But we have been solving it for the last 
few decades in large part illegally.
    Ms. Lofgren. Right.
    Mr. Gay. And that flow has been helpful to our economy to 
grow and should be made legal, regular and orderly.
    Ms. Lofgren. But it prevents them from fully becoming 
Americans.
    Mr. Gay. Right.
    Ms. Lofgren. That is very interesting testimony.
    I call now on the Ranking Member for his 5 minutes.
    Mr. King. Thank you, Madam Chair.
    First, I would direct my attention to Mr. Bock, and I do 
appreciate you being here today and appreciate you being an 
American.
    And I can understand why your mother had to wipe her eyes 
when you testified before this Congress. And I am glad to see 
that. I will remember that image for a long time.
    You must be a very young man, judging from your mother, and 
you have been here for some 30 some years, and so a lot of you 
is a product of this country, too.
    And the difficulty that Google has is we have such a 
massive amount of illegal immigration that we can't get to the 
legitimate debate about what we ought to have for the global 
recruitment that you testified to that you need to keep the 
technological advancement going.
    But I think it is interesting that you have named so many 
companies that have done well in this country, and there are 
reasons for that, and some of the foundations of American 
exceptionalism we have talked about before in this Committee, 
and the rule of law being one of those.
    But I want to let you know that I am for a point system. I 
am for scoring this in a fashion that we can recruit the cream 
off the top, which we have historically done in this country, 
and devising that system so that it is not subsidized labor by 
the taxpayers, as Mr. Hawkins testified.
    And so I would ask you, could Google produce some software 
that would identify for us the very top 1 million people on the 
globe who would apply and want to come to the United States who 
would give the best economic enhancement to our country here? 
Could Google devise that software?
    Mr. Bock. It is an interesting question. I am sure we have 
lots of people who would love to tackle that problem in their 
20 percent time.
    I think that kind of demographic question is a bit outside 
our expertise. Ours is more in searching and serving our users 
by coming up with products rather than ranking and prioritizing 
people.
    Mr. King. You are a smart guy, Mr. Bock, but you do 
affiliate with some people and companies that would have that 
capability.
    And would you agree that that would be the first question 
you would ask if you were going to put a point system together, 
what would be the utopian version, the perfect model that we 
could produce?
    Wouldn't that be the first thing we would do before we 
would ratchet it down and consider things like familial 
associations?
    Mr. Bock. Well, it is interesting. The closest analogy I 
can have is how we look at recruiting talent internally. And we 
actually have a very human, labor-intensive process of 
evaluating candidates.
    We look at resumes. We conduct a lot of interviews. And 
then we have groups of people that sit down and discuss those 
candidates. And then each of those candidates are then reviewed 
by our executive management group and even by our founders 
before we extend----
    Mr. King. In the interest of time--and I would love to sit 
down and talk to you more, but we don't disagree on this, but 
my point is the illegal immigration is the barrier that keeps 
us from getting to your discussion.
    And I would like, if I could, to turn to Mr. Gay, and as I 
listened to the Chair's comment--demographics is destiny is, I 
believe, how she put that. And I agree with that.
    But you know, let me just say that we are a country here 
that has a replacement birthrate of about 2.13 per woman, and 
replacement is about 2.1, so we are right in there real close.
    How much would we have to increase that birthrate in order 
to replace the labor supply that you seek, Mr. Gay?
    Mr. Gay. I have never had that question before. I don't 
know the answer. I will say, though, I had to Google 
``demographics is destiny'' and ``demographics are destiny'', 
and it came up with about the same number of hits, so I went 
with ``are.''
    Mr. King. I thought it was ``are,'' but I was quoting the 
Chair, so--anyway, it is interesting that you did that.
    Mr. Gay. That would be an alternative way to address our 
labor shortage needs. It would be a longer-term----
    Mr. King. But wouldn't that be the first question, Mr. Gay, 
really?
    Mr. Gay. It would take 18 years, but it would be an 
alternative.
    Mr. King. Envision this, then. If we were a continent unto 
ourselves, isolated like maybe Australia, and we didn't have an 
easy--let the borders be open and let people flow across, 
wouldn't we look at this from another perspective?
    Wouldn't we ask the question, what is the ``grow your own'' 
plan?
    Mr. Gay. Yes.
    Mr. King. And then wouldn't that be the kind that would be 
automatically assimilated into the American culture? We 
wouldn't have to ask that question of how many can we 
assimilate.
    Mr. Gay. If we were on an island, yes.
    Mr. King. And so why hasn't anybody even asked the question 
of how many more babies do we have to have to solve this 
problem?
    Doesn't that seem a little odd that there--with a short-
term interest of ``let's have these workers now'', and then who 
is going to pay for their retirement when they get ready to 
retire? We can't ask that question either, because this whole 
comprehensive strategy collapses around that question.
    Mr. Gay. That should be addressed. I think for us, our 
short-term interest is keeping the doors open on restaurants, 
and so----
    Mr. King. Yes.
    Mr. Gay  [continuing]. I mean, that is really a long-term 
solution that should be looked at.
    Mr. King. And I want to tell you that I understand your 
short-term problem, but my responsibility is the long-term 
destiny of America. And so if we have a disagreement, it will 
be there, and I thank you.
    And then, Mr. Mixon, you have been able to harvest these 
crops, for the most part, and so you are finding a way to solve 
the problem.
    But you know, sometimes we are in this situation where we 
confuse our national security with the need to harvest a crop, 
President Reagan's quote notwithstanding.
    And so I would ask you, is there such a thing as an 
essential crop that America has to have in order to survive and 
be healthy?
    Mr. Mixon. That is a good question. I think the discussions 
on produce for better health indicate that Americans do need to 
eat healthier. Now, do we want to farm it all out overseas?
    Mr. King. But any specific crop, any individual one we 
can't get along without?
    Mr. Mixon. Oh, I am very preferable to blueberries. 
[Laughter.]
    Ms. Lofgren. The gentleman's time has expired.
    Mr. King. I will let it settle with that one and yield 
back.
    Ms. Lofgren. We turn now to the author of the AgJOBS bill, 
Congressman Howard Berman, for his 5 minutes.
    Mr. Berman. Thank you, Madam Chair.
    And you have demography is destiny. That is the way to get 
around the right verb.
    And then you have the Karl Marx-Hawkins perspective about 
the reserve army of unemployed pressing down wages. Mr. 
Hawkins, I am sure, is right many more times than Karl Marx 
was, but in this case, I think they both touch on something, 
and Mr. King did in his comments. I will get back to that in a 
second.
    My first question is really to Mr. Bock and to Mr. Gay. We 
have got a Senate bill in its current form, as of 9 o'clock 
this morning--Mr. Bock, to what extent is that bill better than 
the current situation for a company like Google?
    And in that, put a little finer point on your concerns 
about the point system. I didn't understand the point system to 
be distributed based on whether you wanted to work in search 
engines or someplace else.
    I thought of it as dealing with degrees and training in 
certain areas from which people could work in a number of areas 
based on the economy and where innovation was taking us.
    And, Mr. Gay, also, the Senate bill versus the current 
situation and its deficiencies as we come to grips with how we 
in the House are going to deal with this.
    Those would be the questions I would like both of you to 
answer.
    And should I just ask my last question also? I would like 
to hear how any of you deal with the point Mr. Hawkins made in 
the context of there is something that at least concerns me 
about the notion of the supply of new foreign workers primarily 
as a depressant on the wages of U.S. workers.
    Yes, you go to the U.S. worker who is willing to work at 
the minimum wage first, but before you think about paying $2 
more than the minimum wage, or $5 more than the minimum wage, 
you seek the foreign worker. Those are my questions.
    Mr. Bock. Thank you. On the first question--and I will 
caveat it by saying my expertise in the currently proposed bill 
extends primarily to what I have read in the newspapers. I am 
not our policy expert.
    But from what I have picked up, we feel strongly that the 
dynamism of the business is important, and it is difficult to 
predict what we need.
    So for example, if I recall correctly, one of the terms in 
the point system is that years' experience is a factor, and the 
more years of work experience you have, the more points you 
get.
    Many of the people we hire come right out of school. And a 
Ph.D. program in computer science can consume somebody's life 
until they are in their late 20's or later--no professional 
experience, and yet a fabulously, tremendously qualified person 
who can move not just to our company but the entire country, 
entire business--oh, absolutely, but as I understand it, the 
preference comes from sort of the more points you get, the 
better, and that would mean they are----
    Mr. Berman. In a weird way, you may want that Ph.D. who 
isn't polluted by a lot of work experience.
    Mr. Bock. Well, we actually look for people who will kind 
of come to things with a fresh perspective, in fact.
    Mr. Berman. Okay.
    Mr. Bock. On the second question, I think it echoes 
Congressman King's point about short-and long-term 
perspectives.
    You could just as easily--and again, I am not an economist, 
but you could just as easily make the argument that wage 
pressure outside the United States would force us to innovate 
more in technology, and there is a short-term and long-term 
solution for how we manage immigration that is supported by 
that.
    Mr. Gay. Mr. Berman, the Senate bill is better than the 
status quo, first and foremost, because there is a bipartisan 
group of people in Congress that are actually trying to fix 
this problem.
    I am tremendously encouraged by that, because absent 
Federal action, States and localities are stepping in, and that 
is a patchwork of laws and regulation business doesn't want to 
face.
    It could stabilize, if it is as written, the current 
undocumented workforce in large part. Seven million of the 12 
million are estimated to be workers.
    One problem with it in its current form is it doesn't quite 
address the future needs. There are certain amendments that 
brought the number down. It doesn't meet the needs of future 
workers coming to the country.
    If that can be fixed, then this bill would be--to Mr. 
King's original question, the biggest difference between the 
1986 amnesty and this bill is that 1986 didn't do anything 
about the future needs for workers in the economy.
    This one is trying to. I don't think it is quite there, but 
that would be the biggest difference between that and the 
status quo.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Gallegly of California?
    Mr. Gallegly. Thank you very much, Madam Chairman.
    Welcome to our witnesses.
    Mr. Mixon, I have a district in California that is largely 
agricultural. We like to pride ourselves on being the 
strawberry capital of the world--larger, prettier, and sweeter 
strawberries.
    So I am somewhat familiar with the issue of perishable rope 
crops and how labor-intensive they are, and you mentioned in 
your testimony that during the peak season you may have as many 
as 1,500 people in the field.
    Can you give us any idea of what percentage of crops, if 
any, that you have lost in the last 5 years that is directly a 
result of lack of labor that has caused the perishables to rot 
on the vine?
    Mr. Mixon. Fortunately, Congressman, we have been very 
blessed to not have lost anything. The closest we came to 
losing crops was last May when this very discussion became 
resonant in our State where we were having different places 
raided because of purported illegal immigrants.
    The rumor of that spread through my county, and even though 
they weren't within 10 miles, 15 miles of my place, I went from 
150 people in the field to about 15.
    Now, that surprises me, because they all show what looked 
to be regular documents, legal documents, by the I-9 standards, 
so that was kind of surprising to me.
    But that is the closest I have come. But the organizations 
I represent have had people where they have lost 25 percent of 
naval crops in the past. I have had berry growers in Georgia--
because of lack of people, they lose crops, as much as 25 
percent.
    Mr. Gallegly. So based on your assessment of what happened 
at that particular point in time, it is probably safe to say 
that 90 percent of the people working in your fields are 
illegally in the United States.
    Mr. Mixon. I would say the numbers are between 75 percent 
and 90 percent, yes. And I would say poorly documented, not 
necessarily illegal.
    Mr. Gallegly. Well, they may be illegally documented. You 
know, it is a felony to use a counterfeit document. But again, 
you are not supposed to be the police officer.
    Mr. Mixon. Right.
    Mr. Gallegly. And I appreciate that.
    Mr. Gay, what percentage of people working in the 
restaurant business today would you say are illegally in the 
United States?
    Mr. Gay. We don't know, and we have never tried to poll 
that. It is not something where you can get a good response.
    Mr. Gallegly. Do you really want to know?
    Mr. Gay. We are the number one employer of foreign-born 
workers in the U.S., so we figure we must have our share.
    Mr. Gallegly. Okay.
    Mr. Hawkins, you were talking about the importation of 
cheap labor and the effect it has on our economy. Has the 
influx of illegal immigrants affected low-income workers in the 
United States?
    Mr. Hawkins. Well, the evidence indicates from the Census 
Bureau, Department of Labor, that there has been a depressing 
effect on wages from this and a lot of people exiting from the 
workforce.
    Just this last month, the Census Bureau reported 51,000 
people exited from the labor force.
    And of course, there are a variety of reasons that could 
happen, but we have always thought in the economics profession 
that the discouraged worker phenomenon was a major part of 
that, that people leave the workforce because they have simply 
given up trying to find an acceptable job.
    So this, again, is a sign this is not a shortage labor 
economy, at least not in the low-skill, low-wage area, and as I 
said, in manufacturing we have had this tremendous displacement 
of manufacturing workers in the United States who are looking 
for work. So I don't see an economy-wide problem that we have a 
shortage here.
    The demographic thing I thought was interesting, because 
you mentioned Japan. There is a reason why Japan leads the 
world in robotics and automated factories: labor-saving 
devices.
    Yes, they do have a slow population growth, and that spurs 
them to adopt technology faster, develop technology faster to 
make up for that.
    Mr. Gallegly. Okay. And in your studies, very quickly, can 
you tell me if you have done a study that shows what percentage 
of the undocumenteds that are coming in have less than a high 
school diploma?
    Mr. Hawkins. Well, somewhere around 50 percent.
    Mr. Gallegly. So you think 50 percent of the illegals 
coming in have got a high school diploma or equivalency?
    Mr. Hawkins. Well, over that, yes, maybe 40 percent, 45 
percent.
    Mr. Gallegly. That is interesting.
    Mr. Hawkins. The Congressional Budget Office estimate was, 
on the other hand, that 36 percent of immigrants from Mexico--
--
    Mr. Gallegly. I see my yellow light is on, so forgive me. 
But I just want to go back to Mr. Mixon and also see if Mr. Gay 
can give us an educated guess, if you will, an informed guess.
    Mr. Mixon has testified that he believes as many as 90 
percent of the people working for him during peak season are 
illegally in the country.
    Would you say that that is probably a fairly consistent 
number with the people that are working in the restaurant 
business?
    Mr. Gay. As I say, I don't know, because we have never 
tested this, and I haven't seen anybody else that has tested 
that----
    Mr. Gallegly. It is not something you would rule out.
    Mr. Gay. That sounds awfully high to me. We have always 
known that agriculture has had the highest percentage.
    Ms. Lofgren. The gentleman's time----
    Mr. Gallegly. Thank you, Madam Chairman.
    Ms. Lofgren. The gentleman's time has expired.
    The gentlelady from Texas, Ms. Sheila Jackson Lee, is now 
recognized for 5 minutes.
    Ms. Jackson Lee. Thank you for this important marathon of 
hearings. I want to pay tribute to Chairwoman Lofgren, because 
if you are working with her or have worked with her, you 
recognize the value of H-1B visas.
    But also, from my own research and study, one understands 
that H-1B visas can, in fact, generate work for others.
    But let me take a line of questioning that I think and hope 
that the witnesses that I am going to query will be empathetic, 
because you have heard the refrain--you have heard the song and 
the refrain--as we proceed in an approach to comprehensive 
immigration reform, you have heard the response that, ``Yes, I 
would take that job,'' and the controversy has many aspects.
    Certainly, it is close the border first before you begin to 
talk about immigration. What you gentlemen are talking about 
partly is, of course, what has been going on as it relates to 
legal immigration, particularly the H-1B visas.
    The reform bill has a number of subset visas which create 
other opportunities for individuals to come in.
    But whenever I am engaged in a discussion with 
constituents, and whether or not it is in my state of Texas or 
around the Nation--and I think rightly so--there is a sense 
that they are taking our jobs.
    And to be honest with you, the business community has not 
been helpful in that debate. You have not been helpful in, if 
you will, providing the response--a credible response that 
suggests that is not the case, or that we are here and ready to 
hire you, or to accept you.
    One of the aspects that I believe--a theme that will run 
through this bill, and has run through a number of legislative 
initiatives, is the attestation and the responsibility to 
indicate that you have, in fact, reached out to others and to 
provide them with the opportunities.
    For us to get to the end of the road, the light at the end 
of the tunnel, I think that for all of us who have a sense that 
comprehensive immigration reform is, in fact, the best and 
right direction to take in spite of the heightened tensions 
that are now being created and the divide that is being created 
and the pitching of one group against the other, we are going 
to have to have you work with us.
    So I would like to ask Mr. Bock, if I can, do you see the 
value in promoting and encouraging American workers for your 
profession and your industry?
    Mr. Bock. Thank you. I absolutely do, and Google absolutely 
does.
    Two broad points. One is that the $1,500 fee that is 
required on the filing of H-1Bs today is used to train and 
educate American workers. In the 8 years that has been in 
effect, $1 billion has been collected and spent, providing 
40,000 scholarships to Americans and training 82,000 U.S. 
workers. The more H-1B people we allow, the higher that number 
will grow.
    Ms. Jackson Lee. Well, let me just say that--I am glad you 
answered that. Probably you were instructed to do so if I asked 
the question.
    But I believe that there needs to be more. And frankly, I 
believe there needs to be a specific vehicle in the 
comprehensive immigration reform, and many of my colleagues and 
many of my constituents are not necessarily here in this--here 
in my own State but believe that we should have a fixed 
training component that is really more orderly than H-1B 
funding, because we really can't find that funding.
    Those numbers sound good, but they really don't reach some 
of the underserved areas. And so let me just say this. Do you 
have a history--and I would like you to give it to me in 
writing--of recruiting at African-American--historically Black 
colleges?
    I would like you to give me all of the colleges, and I 
would like if there is an association, that association reports 
to me what you all have done.
    What do you do with respect to, in this instance, whether 
it be Hispanic who happen to be here in this country already, 
or African-American engineers who have indicated in this very 
room that they are not received well in terms of hiring in your 
industry? Do you specifically recruit?
    And let me get in my last question to Mr. Gay so that as 
the light goes out he can answer it as well. You are in the 
restaurant business, and we have restaurants in Houston, and I 
know your organization, and you have worked real hard, and I 
thank you.
    But what are you doing--these jobs include management and 
otherwise as well--to ensure that Americans who need the work 
are getting the work?
    Mr. Bock, if you would?
    Mr. Bock. Yes. So keeping the comments brief, we actually 
view it as our obligation to reach out to underrepresented 
communities in our industry, particularly women in engineering, 
particularly African-Americans, and particularly the Hispanic 
communities.
    We have a number of scholarship programs with the United 
Negro College Fund. We have started a Hispanic college fund. 
We, this past year, went to Morehouse. We went to Spellman. We 
went to Clark. We went to a number of historically Black 
colleges, and we have a very strong internal Black Googler 
network, as we call it. We have those around a variety of 
groups.
    We also believe it is important to get to people early, so 
we get very involved in K through 12 education with another 
organization called the LEAD Program.
    We also have a partnership with Teach for America, because 
we think it is important to send great teachers into 
impoverished or disadvantaged communities.
    Ms. Jackson Lee. And I know I won't get all the answer. 
Would you complete your answer for me in writing with the list 
of colleges, please?
    Mr. Bock. Yes, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Gay?
    And I thank the Chairwoman.
    Mr. Gay. Yes, Ms. Jackson Lee. As I think you know from 
working with restaurateurs from Houston, they recruit 
intensively in their areas to try to fill these jobs.
    And we would like to point out that getting into the 
restaurant industry is a path to management and is a path to 
ownership.
    And I will get you the exact number, but if I recall 
correctly, African-American ownership in the restaurant 
industry is growing faster than any other segment, faster than 
the average, over 70 percent.
    So I think it is a sign that that is working, that more 
African-Americans are coming in and moving up within the 
restaurant industry.
    Ms. Jackson Lee. Well, you see my need for advocacy.
    And I thank you, Madam Chair.
    Well, you see what we are trying to--we are trying to both 
get at the end of the tunnel. And I would like to work with 
you, and I would like to be able to hear back in writing 
specifically about your outreach and hiring American workers.
    I yield back.
    Ms. Lofgren. The gentlelady's time has expired.
    The gentleman from Texas is recognized for 5 minutes.
    Mr. Gohmert. Thank you, Madam Chairwoman.
    I appreciate you all being here, and I appreciate the 
questions from my friend from Texas. Those are good questions. 
And the concern some of us have is that we get to the end of 
the tunnel she referred to, and we meet an oncoming train.
    And, Mr. Bock, I think it is delightful your mom is here. 
Speaking with her briefly, she seems like a delightful person. 
But it reminds me of some of the best advice I have ever seen 
in print.
    It was a quote from the Mayflower Madam several years ago, 
who had her phones wiretapped and lots of tapes at her trial.
    But she made the recommendation to people that never say 
anything that you wouldn't mind having played back at your 
trial in front of your mother. And I think that is good advice 
for all of us. You have your mother here personally.
    But I am curious, anecdotally, for each of you, for those 
who have hired persons with H-1B visas, anecdotally, in your 
situation, what happened long-term with those people who had H-
1Bs? What did they do?
    Mr. Bock. At Google, as of today, about 10 percent to 15 
percent of those people have become permanent green card 
holders or citizens.
    A large portion of them have become either green card 
holders or permanent citizens. A lot of the hiring has been in 
the last couple years. We don't have a deep history yet, but 
that has been our experience.
    The other thing we found is that----
    Mr. Gohmert. What happens to the rest of them----
    Mr. Bock. Oh, I am sorry.
    Mr. Gohmert  [continuing]. The 85 percent?
    Mr. Bock. They are still within the 6-year H-1B window----
    Mr. Gohmert. Oh, Okay.
    Mr. Bock. And to be honest, the biggest question becomes 
around what happens with their wives, can their wives work, 
things like that.
    The other thing we found----
    Mr. Gohmert. And what is the answer?
    Mr. Bock. Well, hopefully they can get visas, too, and 
pursue the path to citizenship. The other thing we have found--
--
    Mr. Gohmert. Has that happened in the cases in which you 
deal, your employees?
    Mr. Bock. It has in some cases. There is a couple 
challenges. The green card backlog is a real challenge for us.
    We have had people have to wait as long as 2 years, and 
what happens in some of those cases is people say, ``I can't 
live with this ambiguity anymore, I am going to return to my 
home country,'' and sometimes go work for another employer.
    The other thing we have found is that each person we do 
hire on an H-1B--generally, our engineers create our products. 
They are the source of creativity in our company.
    Anecdotally, if I go back to the example of Orkut, the 
multiplier in terms of jobs that have been created is 10 times 
to 50 times that one person. So we have created essentially a 
small company around his idea.
    Mr. Gohmert. Mr. Mixon, do you have any H-1Bs? I know you 
have----
    Mr. Mixon. No.
    Mr. Gohmert. You don't?
    Mr. Mixon. No, sir.
    Mr. Gohmert. No? All right.
    Mr. Hawkins, do you have any information yourself?
    Mr. Hawkins. Well, I can't say for sure whether all of our 
or any of our companies use H-1Bs per se.
    But I am concerned about the related issue that is in the 
pending legislation coming out of the Senate which has been 
brought up about the guest workers program and this point 
system for skills and education.
    I think that would constitute a reform, which is, I 
suppose, what we are running about, reforming the immigration 
system here.
    If it does push us in the direction of bringing in more 
high-end workers and in place of the failed policy we have had 
of--that has been focused on regularizing now the uneducated, 
unskilled--but I am not sure that is what is happening.
    This, I think, has to be looked at very carefully, not only 
in the Senate but when and if the bill comes over here, because 
the Wall Street Journal May 30 editorial was complaining about 
how the Senate had cut the guest workers program from 400,000 a 
year to 200,000, which is very large numbers, called the guest 
worker program a guest worker program for low-skilled workers.
    That is how they interpret what the Senate is doing, and 
that is not--we can't go down that road. That would not be 
reform. That would be the continuation of the failed policy 
that we have gotten by--de facto failed policy----
    Mr. Gohmert. Well, I am curious, quickly--because I was 
curious about the H-1Bs.
    But for those who hire labor who are immigrants that are 
documented, supposedly, whether it is illegal documents or not, 
do you hire them as contract labor, as employees, or both?
    Mr. Mixon. If I can speak to that, we hire strictly as 
employees.
    Mr. Gohmert. Strictly employees, no contract labor.
    Mr. Mixon. No.
    Mr. Gohmert. Okay. All right.
    Mr. Gay. I think for the most part in the restaurant 
industry, it would be employees.
    Mr. Gohmert. For the most part, but there are some hired--
--
    Mr. Gay. We have 12.8 million workers in our industry, so I 
hesitate to make absolute statements, but I think for the most 
part the model is they would come in as employees like any 
other employee.
    Mr. Gohmert. Okay. Well, I see I have the red light. Let me 
just comment. One of the things that I heard about the Senate 
bill, that once the triggers occur and people who are here 
illegally are authorized to be here legally, and it turns out 
they haven't paid taxes, they can just pay their $5,000 fee.
    And, Madam Chairwoman, I have had some people inquire, 
American citizens, how they could apply to be illegal so they 
could pay $5,000 instead of their taxes.
    Thank you.
    Ms. Lofgren. Thank you.
    The gentleman, Mr. Davis, from Alabama?
    Mr. Davis. Thank you, Madam Chairwoman.
    Mr. King, I think, raised the national security issue about 
10 minutes or 15 minutes ago, and I wanted to perhaps raise the 
national security issue from a totally different perspective.
    There was a column in Newsweek this week from someone--and 
I apologize if I am butchering his name, but Fareed Zakaria, 
who a lot of people have seen on the Stephanopoulos program 
every Sunday. He is a very eloquent writer who writes a piece 
in Newsweek every week, and he has written a number of pieces 
about the direction of American foreign policy.
    And it was a very interesting story. He mentions that he 
came to the United States on a student visa in 1982, and he 
mentions that when he came here, he had, frankly, soaked up a 
lot of what the left in India had to say about American 
culture.
    He came here with a particular perspective on this country 
and its policies and its values, and he was prepared to not 
like our country very much. And a lot of his friends back in 
India didn't like our country very much based on what the left 
in his country was saying.
    And he makes a very interesting point. He says that in the 
course of being here as a student and absorbing American values 
in real-time, totally changed his impression of this country.
    And he makes the observation that in a world where 
obviously a lot of people don't like American values and 
culture now, and that poses a threat to us, that there is 
itself a value in bringing people here, letting them see what 
it means to be an American in practice, even letting them see 
how we treat people who aren't Americans.
    And, Mr. Bock, perhaps you could comment on that 
perspective, the foreign policy angle and what I think is a 
national security angle that an immigration policy, if it 
works, can actually be a vehicle for shoring up American 
credibility in the world.
    Can you briefly comment on that?
    Mr. Bock. I think that is very true. Speaking from my own 
personal experience, the idea of America, of what America stood 
for--freedom, and capitalism, and the right to not be afraid of 
the secret police, and the right to be able to trust your 
neighbors and your friends--the idea that you could actually 
come and build a business and make it on your own, not look for 
a handout but actually just have a fair chance, was pretty 
unique.
    It was absolutely unique in Romania at the time, and it is 
still fairly unique in the world. And it is something precious 
and treasured. And I think giving more people exposure to that 
is a tremendous value.
    And even just having the option, the opportunity, that lets 
people know that that is out there has a huge, huge potential 
impact on the rest of the world.
    Mr. Davis. I would agree with that, Mr. Bock, and I suspect 
that growing up in Romania you did not necessarily receive the 
most favorable impression of the United States either.
    And I think that is a point worth this Committee 
considering, that if we are concerned about shoring up American 
credibility, there are multiple ways to do it, and H-1B visas 
can be one of them.
    Let me turn to you, Mr. Hawkins. I stayed up late last 
night watching the Republican presidential debate, and I found 
it interesting on several notes.
    A number of the individuals--I guess everyone except John 
McCain, frankly--over and over I would hear this refrain. They 
would say, ``We love immigration. It has made our country 
better. It has made our country stronger. We just don't like 
the illegal aspect of it.''
    And that was the particular rhetorical device that was used 
last night to explain their positions. It is what Governor 
Romney said, what Mayor Giuliani said.
    Mr. Hawkins, it seems that you are in a little bit of a 
different place from where those guys are.
    If I understand your economic analysis, you would have just 
as much of a problem with low-skilled legal workers, frankly, 
coming in this country as you would low-skilled illegal 
workers, wouldn't you?
    Mr. Hawkins. Well, it would continue to move the economy in 
the wrong direction.
    Mr. Davis. But I am just asking if you would agree with me 
that you don't really draw a distinction between legal and 
illegal, do you?
    Mr. Hawkins. Well, in a sense----
    Mr. Davis. You are just as troubled by the legal ones.
    Mr. Hawkins. Well, if by legalization we mean we simply 
take the pattern of illegal----
    Mr. Davis. No, no. Well, because my time is limited, let me 
press the point, because my yellow light is on.
    It seems to me that all of your economic theories about low 
wage depression would be absolutely applicable to individuals 
who were low-wage who came here through a perfectly legal 
process, because your concern is the wages they make and their 
penetration into the economy, and whether they are legal or 
illegal doesn't seem to make an economic difference, unless I 
am misunderstanding.
    Mr. Hawkins. From an economic point of view, that is true.
    Mr. Davis. Okay. Now, so let me take that as your answer. 
My time is limited. I wish we had 15 minutes. I didn't make the 
rules here, Mr. Hawkins.
    Let me close with this observation. I do think Mr. Hawkins 
is right about one very important observation. The Senate bill 
2 years ago, I think, was a little bit shrewder, frankly, than 
the bill before the Senate right now in one major aspect.
    If I can just finish my point very briefly, Madam 
Chairwoman.
    The Z visa for all of the 12 million undocumenteds in 
effect treats all the undocumenteds the same. It kind of wraps 
them in one policy.
    And I fear, as someone who, frankly, was very much an 
opponent of the House bill 2 years ago and someone who is a 
supporter of comprehensive reform--I am a little bit concerned 
that the Z visa approach, by wrapping all 12 million together, 
may play into the hands of people who raise arguments about 
amnesty, and that it may play into the hands of people who 
raise those issues.
    The bill 2 years ago, as you recall, drew distinctions. 
People who had been here for a longer period of time, who were 
rooted in the community, got treated one way. Those who had 
been here for less time and weren't as rooted got treated 
another way.
    And I wonder if that might not be the shrewder approach.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Ellison is recognized for 5 minutes.
    Mr. Ellison. Madam Chair and members of the panel, thank 
you all. I was doing double duty in Committees, so I hope I 
don't ask you any questions you have already answered. But 
thank you if I do happen to do some duplication.
    Would you identify, if you would, Mr. Bock--would you 
regard as the area in which reform is most pressing, where we 
need to legislate? If we can't do everything, what must we do 
in this to suit the needs of business in this next round of 
immigration reform?
    Mr. Bock. From the Google perspective, and more broadly for 
the technology industry, the two biggest areas to focus are, 
one, increasing the number of H-1B visas permitted per year, 
and, two, decreasing the lag it takes in working through the 
backlog on processing of green cards.
    Mr. Ellison. Okay. Backlog and H-1B. I thought you might 
say that. And one of the things--and I want to just put the 
cards on the table. I agree with you.
    But as some folks from a different perspective jump into 
the debate--you know, I have been wondering about what you 
thought about the business sector, particularly the technology 
sector, as people like me support the position you were 
taking--increase H-1B visas and increase workers so we can deal 
with the backlog.
    Would you all support a strong, robust, targeted program to 
really help educate some American-born workers as we go about 
that?
    I mean, could you see yourself supporting a program 
targeted--say, like historically Black colleges--to try to get 
some of these students into the field?
    Because quite frankly, from a political standpoint, if I 
support your position, which I am prepared to do, I am going to 
get some blowback from other sectors that I also represent.
    And it would be nice to be able to say, ``Well, you know, 
Mr. Bock supports, you know, making sure that American workers 
and young people are trained and have a real chance in the 
technology field, too.''
    Mr. Bock. Well, according to the National Science 
Foundation, 3 percent to 6 percent of computer science students 
are African-American today. That is far lower than the 
percentage of African-Americans in the U.S. population.
    And it is something that we as a company invest in growing 
through our K through 12 interventions, through our Teach for 
America programs, through scholarships, through a number of 
activities we are involved in that I could provide significant 
detail on.
    But we absolutely think that is an area that is worth 
investing in.
    Mr. Ellison. Yes, and just to say--you know, I think that a 
lot of--I think personally, you know, a lot of the dialogue 
around immigration, I find it just personally divisive, and it 
is done for political reasons that have nothing to do with 
helping anybody, just one party trying to get advantage over 
another one.
    But I do think that we could blunt a whole lot of that 
noise, criticism, if the technology community said, ``Hey, we 
are going to deal with the challenges of the inner city, too.''
    Do you have any thoughts on this, Mr. Mixon?
    Mr. Mixon. I am from the ag department, so technology is 
something we deal with on a much lower level than the Google 
group, but it is still technology, so I really----
    Mr. Ellison. Oh, I don't mean just technology. I know you 
come from the agricultural sector, but agriculture employs a 
lot of people.
    Mr. Mixon. It does.
    Mr. Ellison. And I guess the question I am asking about not 
as--what about technology. I am saying that, you know, as we 
go--first of all, what do you view as the most important reform 
measures for comprehensive immigration?
    As we tackle this problem, what do you think is the most 
critical issue?
    Mr. Mixon. In my opinion, the most important thing is some 
kind of transition. I think we all agree that border security 
is important. I think there is common ground there.
    I think there is also common ground that there is a 
recognition that there is a large percentage of folks that are 
poorly documented and documented incorrectly.
    I think our biggest concern from the ag department, from 
the ag division, of all this is a transition to where we, as 
employers, can truly have a legal, verifiable, documented 
workforce.
    Mr. Ellison. Thank you for that, which gets me back to the 
point I was trying to get at. Since I think we do have a pool 
of people who we could employ in the United States, but we also 
often find ourselves needing foreign workers as well.
    What do you think about the idea of trying to develop some 
native-born American workers to work in the ag sector?
    Mr. Mixon. I think the Ag group is doing some of that 
currently.
    Mr. Ellison. Could you talk about it?
    Mr. Mixon. Yes, I could. I have been told from my group 
behind me, my brain trust--because I am focused in Florida, for 
the most part.
    Mr. Ellison. Right.
    Mr. Mixon. But in North Carolina, the farm bureau up there 
set up a hotline, a statewide media blitz. They said North 
Carolina needs 100,000 workers. They got two answers.
    And in Washington State, last August the apple industry 
partnered with their State workforce agencies to hold a series 
of recruitment and orientation sessions in order to find 
domestic workers.
    They needed 1,700 workers. And according to what I have 
been told, they received 40. So there is a misperception, or 
some kind of lacking here that American workers aren't in the 
ag business for some reason, ag communities.
    I don't know what the disconnect is. The wages are good.
    Mr. Ellison. I will tell you, because here is an 
interesting thing. You know, my mother is from Louisiana. My 
father is from Georgia. Both of them worked in agriculture 
growing up. That is what they did before they came to the big 
city of Detroit where I was born.
    It is hard for me to believe that there is not a lot of 
folks in the United States who go back generations on the farm 
who might just be in the inner city now, but families go way 
back.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Ellison. It is a matter of recruitment, a matter of 
trying to draw people in. I mean, if we are going to spend 
money on a guest worker program or whatever else, I mean, I 
think we could probably go to the urban centers in North 
Carolina to try to get some folks to do ag work.
    Mr. Mixon. I would agree.
    Ms. Lofgren. The gentleman's time has expired.
    I turn now to the gentlelady from California.
    Ms. Waters. Thank you very much, Madam Chairlady. Let me 
just again thank you for the great work that you are doing on 
this immigration issue. You are working us to death, but you 
are really getting us to engage in ways that perhaps few of us 
have done before on this issue.
    As we watch the debate unfold, it is much more complicated 
than many people ever thought it would be.
    But let me just gear in on where Mr. Ellison started to 
engage our panelists, by surfacing this argument that is coming 
from many communities in the country about displacement, worker 
displacement.
    We hear constantly that we have constituents who don't want 
us to support the visas, the H-1B visas. They say, ``Why don't 
we look in this country first and see what we could do about 
improving job training and placement?''
    And there is this constant argument about what are we doing 
to employ people right here in this country, to recruit, train, 
develop, et cetera.
    So what can you tell me about your outreach and your 
efforts to make sure that you are employing people in Silicon 
Valley that come from Oakland, California, who come from areas 
nearby where the unemployment rates are high?
    Mr. Bock. We do a number of things. One of the 
misconceptions about Google is that we only hire software 
engineers and computer scientists, where, unfortunately, there 
is a shortage of people of certain ethnicities and from certain 
communities.
    We also hire sales people. We look for outstanding finance 
people, outstanding attorneys. Our general counsel and chief 
legal officer, David Drummond, is himself a son of a Tuskegee 
airman----
    Ms. Waters. How many employees do you have?
    Mr. Bock. We have, at the close of the last quarter, 12,200 
employees.
    Ms. Waters. How many are African-American?
    Mr. Bock. I don't actually have that data at my fingertips. 
I apologize.
    Ms. Waters. All right.
    Mr. Bock. But regardless of what it is, it is a number that 
we would like to get higher, and we invest a tremendous amount 
in trying to get that number higher.
    Ms. Waters. How do you do it? How do you invest?
    Mr. Bock. We partner with a number of organizations to do 
outreach early in people's lives, K through 12. We provide 
scholarships to people so that they can go to college.
    We actually also go to a lot of campuses and do what we 
call tech talks, where people just have a chance to interact--
--
    Ms. Waters. Have you been to the Black colleges and 
universities?
    Mr. Bock. We have.
    Ms. Waters. That is what Mr. Ellison was talking about. 
Have you been to Morehouse and Spellman, for example?
    Mr. Bock. We have. We have been to Morehouse, Spellman, 
Clark. I don't have the entire list in front of me.
    Ms. Waters. How well have you done going to Morehouse? That 
is where my grandson goes.
    Mr. Bock. We are actually still not done with extending all 
the offers for campus hires, so I don't know what the final 
answer will be.
    But actually, we are investing more and more in those 
schools in particular, in historically Black universities, 
because there, we believe, is, for technology and for us, an 
untapped talent pool that we want to get to.
    But we also want to get more students ready for companies 
like Google and help increase the capability of people in those 
programs as well.
    Ms. Waters. Well, I think that as we wrestle with some of 
these very complicated issues, it would bode well for your 
industry to talk with some of us who have to have a vote on 
this stuff about how we can answer the question of why can't we 
get jobs rather than having you support a vote to bring people 
from India.
    So I would like to engage with you on that and look at what 
your programs are for outreach, and perhaps we could have some 
suggestions for you that would help us in answering these 
questions.
    Mr. Bock. I would welcome that. What I would add is that 
for Google, fortunately, our situation is it is never either/
or. We would love to do both.
    And as we are growing and because of the value created by 
some of these exceptional people, our ideal answer, when we 
find two exceptional candidates, is let's get both of them. So 
that is our focus. But we would welcome the conversation.
    Ms. Waters. Well, thank you.
    Let me just say that based on what I know about many of the 
businesses that are relying on undocumented workers or 
immigrant workers, it appears that--not perhaps with your 
industry, but with some of the other industries--they are 
relying on cheap labor.
    Some of that labor is exploited. And people have nowhere to 
turn, actually, or they are afraid. They are a little bit 
intimidated. And we are not going to sweep these issues under 
the rug as we try and deal with how to come up with a good 
immigration policy.
    I am not interested in the support of industry for low paid 
workers, no health benefits, no pension plans, and that it is 
all right to do it with immigrant workers, rather than have to 
deal with organized labor and educated workers who would demand 
more from the workplace.
    So I just put that out there for you to understand, because 
many of us are quite progressive in wanting to have a good 
policy that would have somewhat of a path to legalization.
    But we are going to gear right in on guest workers, and we 
are going to look at these industries and see what they are 
doing, and see how we can make good sense out of it.
    With that, I yield back the balance of my time.
    Ms. Lofgren. The gentlelady's time has expired.
    And I want to thank all of the witnesses for their 
testimony today.
    And, without objection, Members will have 5 legislative 
days to submit any additional written questions to you, which 
we will forward and ask that you answer as promptly as you can 
so it can be made part of the record.
    And, without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    I think this hearing today has helped to illuminate many of 
the issues relative to our immigration system and the business 
community.
    I would like to extend an invitation to everyone here today 
to attend the next hearing on comprehensive immigration reform 
that will be held at 2 o'clock today in this very room. We will 
hear from Federal Government agencies on numbers and data that 
hopefully will inform our decision-making process.
    But this panel today has been enormously interesting. And, 
you know, a lot of people in the public don't realize you are 
here as volunteers to help us with your expertise, and we 
certainly do appreciate it. And thanks to each and every one of 
you.
    The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Letter from Laszlo Bock, Vice President, People Operations, Google, 
 Inc. to the Honorable Zoe Lofgren, a Representative in Congress from 
 the State of California, and Chairwoman, Subcommittee on Immigration, 
     Citizenship, Refugees, Border Security, and International Law

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Letter from William B. Spencer, Vice President, Government Affairs, 
 Associated Builders and Contractors (ABC), Inc. to the Honorable Zoe 
  Lofgren, Chairwoman, and the Honorable Steve King, Ranking Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
